No.

IN THE
SUPREME COURT OF THE UNITED STATES

Mr. Antonio Sierra, Ph.D. -Pro Se PETITIONER
vs.
COMMONWEALTH OF PENNSYLVANIA, et al -RESPONDENTS

APPENDIX
On Petition for Writ of Certiorari to the
Supreme Court of Pennsylvania

PETITION FOR WRIT OF CERTIORARI

*7

, Ph.D., Pro—Se
Antonio Sierra, ID# DV-0686
10745 State Route 18
Albion, PA 16475

i.

•, t

*

■

.{
\ .

[

TABLE OF EVIDENCE

1.

OPINION OF SUPREME COURT OF PENNSYLVANIA

A. 01—

n.

OPINION OF SUPERIOR COURT OF PENNSYLVANIA

B. 1 -10

m.

OPINION OF COURT OF COMMON PLEAS—ERIE

C. 1- 12

IV.

BRIEF IN SUPREME COURT

D. 1— 04

v.

BRIEF IN SUPERIOR COURT

E. 1—27

vi.

BRIEF IN COMMON PLEAS COURT

F. 1—07

Vll.

EVIDENCE PRESENTED IN CASE

G. 1—30

VIII.

ADDITIONAL FACTUAL ACCOUNT

H. 1—16

App. A.01

IN THE SUPREME COURT OF PENNSYLVANIA
WESTERN DISTRICT
ANTONIO SIERRA, PH.D.,

No. 153WAL 2020

Petitioner
Petition for Allowance of Appeal
from the Order of the Superior Court
v.

JACK DANERI, MICHAEL CLARK, TAMMY
WHITE, SAMUEL KLINE, JOSH SHAPIRO,
__ COMMONWEALTH OF PENNSYLVANIA.
Respondents

ORDER

PER CURIAM
AND NOW, this 6th day of October, 2020, the Petition for Allowance of Appeal is
DENIED.

A True Copy Patricia Nicola
As Of 10/06/2020
Attest;_________________
Chief Cleric
Supreme Court of Pennsylvania

App. K.o\

App. B.l—10

J-S15040-20

NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37
IN THE SUPERIOR COURT OF
PENNSYLVANIA

ANTONIO SIERRA, PH.D.
Appellant

v.

JACK DANERI, MICHAEL CLARK,
TAMMY WHITE, SAMUEL KLINE, JOSH
SHAPIRO, COMMONWEALTH OF
PENNSYLVANIA

No. 1647 WDA 2019

Appeal from the Order Entered October 15, 2019
In the Court of Common Pleas of Erie County Civil Division at No(s): No.

12719-2019
BEFORE:

BENDER, PJ.E., OLSON, J., and STEVENS, PJ.E.*

MEMORANDUM BY STEVENS, PJ.E.: -

FILED MARCH 20, 2020

Appellant Antonio Sierra, Ph.D. (Appellant) appeals pro se from the
Order entered in the Court of Common Pleas of Erie County on October 15,
2019, denying his serial petition filed pursuant to the Post Conviction Relief
Act (PCRA)1. We affirm.
In September of 1998, following a jury trial in Lebanon County,
Appellant was convicted of thirty-one (31) criminal counts, which arose from
a brutal incident that occurred in a second floor apartment on Main Street,

* Former Justice specially assigned to the Superior Court.
1 42 Pa.C.S. §§ 9541-9546.

. \

J-S15040-20

Anville, Pennsylvania, on November 4, 1997.2 Appellant was sentenced in
Lebanon County in 1998, and this Court affirmed his judgment of sentence in
1999. Appellant's appellate rights were reinstated on collateral attack in May,
of 2000.

See Trial Court Opinion, filed August 10, 2000, at 1-2 (Court of

Common Pleas of Lebanon County No. 1997-11239), attached as "Exhibit C"
to PCRA.
In March of 2004, Appellant filed a Motion to Vacate and Set Aside Illegal
Sentence and/or for Writ of Habeas Corpus, and the trial court denied the
motions as untimely. Appellant fled an appeal with this Court in April of 2004,
and in October of that year, we affirmed the trial court's Order. The
Pennsylvania Supreme Court denied Appellant's Petition for Allowance of
Appeal in April of 2005. Numerous motions followed, all of which were denied
by the trial court of Lebanon County. Appellant's subsequent appeals to this
Court and to the Pennsylvania Supreme Court were unsuccessful.
On October 3, 2019, Appellant filed the instant "Motion for Post
Conviction Collateral Relief' in Erie County. Therein, he acknowledged that

2 Appellant's thirty-one guilty counts were as follows: three (3) counts of
Criminal Attempt to Commit Criminal Homicide; six (6) counts of Aggravated
Assault; three (3) counts of Recklessly endangering Another Person; three (3)
counts of Unlawful Restraint; three (3) counts of Arson Endangering Persons;
three (3) counts of Theft by Unlawful taking, one (1) count of Criminal Attempt
to Commit Theft by Unlawful Taking; eight (8) counts of Robbery and one (1)
count of Criminal Conspiracy. See Trial Court Opinion, filed August 10, 2000,
at 2 n. 1 (Court of Common Pleas of Lebanon County No. 1997-11239),
attached as "Exhibit C" to PCRA.
- 2-

J-S15040-20
while he filed his Petition more then a year after the "alleged date of final
judgment" he claimed his failure to timely-File the petition was the result of
governmental interference with correspondence addressed to him while he
has been incarcerated between January and April of 2019. See PCRA petition,
filed 10/3/19, at 2-3. He also makes numerous allegations pertaining to his
trial. Specifically, he contends, as he had in earlier appeals, that prosecutors
conceded attempted third degree murder is not a valid charge of which one
can be convicted.
In its Order entered on October 15, 2019, the trial court denied
Appellant's PCRA petition as he has not been convicted of any crimes in Erie
County; thus, no basis exists for a PCRA petition there. The court noted that
Appellant was aware he had not been convicted of a crime in Erie County and
advised him "that he may face sanctions for any further abuse of the judicial
process in Erie County in which he seeks relief related to his Lebanon County
Criminal Convictions." See Order of Court, 10/15/19, at 1.
Appellant filed a timely Notice of Appeal pro se on November 4, 2019.
On November 5, 2019, the trial court entered its Order pursuant to Pa.R.A.P.
1925(b), and Appellant filed his "Plaintiffs Concise Statement of Matters
Complained of on Appeal" on November 22, 2019.

That statement is

comprised of ten, single-spaced pages which contain forty-five separately
numbered paragraphs. In its Memorandum Opinion filed on December 4,

-3 -

"2>. 3

3-S15040-20
2019, the trial court found that Appellant's appeal lacked merit and should be
dismissed for the reasons set forth in the October 15, 2019, Order.
In his brief, Appellant presents the following Statement of Questions:
1) Whether portions of the trial court[']s Order that denied
subsequent P.C.R.A. and in forma pauperis is manifestly
unreasonable when government interference with conditions of an
illegal incarceration is within 9545(b)(l)(i), to timely assert
process commencement on violation to Plaintiffs First, Fourth,
Sixth and Fourteenth Amendment to the Constitution of the United
States by Defendants unlawfully seized incoming privileged
correspondence with no probable cause and where plaintiff
represents an illegal charge as detaining him without due process
of law and impeding due course of justice? 2) Whether, portions of the trial courts assessment of 2016-2017
filings in the State Courts of Pennsylvania as alleged (now)
constitutes prejudice, where said portions of facts (presumably
judicially true), are previously unknown and Plaintiff exercise due
diligence to bring these claims before the (present) Court
satisfying 9545(b)(l)(ii) component and, ... As plaintiff disclose
an unlawful attack by Defendants on Piaintifft'js civil action
through a known Order that was a 1925(a) Opinion, as brought to
the Trial Courts attention, Yet; thereafter, continued to cause
prejudice by alleging intentional misleading and confusing
technical facts critical to evaluating Plaintiffs conduct when
Defendants and this Court themselves did not address the
misrepresented nature of the Order, not effects of said
determination, 3) Whether the trial court exercised a manifestly unreasonable
judgment when, notwithstanding any of Defendants and such
government statements to the contrary of the evidence placed to
the P.C.R.A. petition on record, plaintiff is not imprisoned for any
indictable offense in the Commonwealth of Pennsylvania, rather
(a) Incarcerated on Attempt 3rd Degree Murder, a non -criminal
charge and Commonwealth [hereinafter "Cmwlth"] v. Lee, 312
A.2d 391 (Pa. 1973); (b) Where the trial judge altered, a jury
verdict after said verdict was entered on the record as the Original
verdict, and (inter alia), Blakely v. Washington. 542 US 296
(2004), and Cmwlth v Dunn 385 A.2d 1299 (Pa.1975); (c) where
-4 -

/\pp> B-H

J-S15040-20

a 1925(a) opinion entered by said trial judge to unlawfully vacate
said jury verdict and on the record cause plaintiff prejudice and
(inter alia), Cm with v. Lobiondo 462 A.2d 662,_665. n.4 (Pa.
1983), (d) where even against the jury verdict, those in
government further altered documents,.leaving a verdict without
judgment (inter alia). Smith v. MeCooi. 83 US 560, 561 (1873);
(e) where a plea agreement rendered void by the evidence as
submitted capable of revealing no judgment of Sentence and no
judgment of commitment to cause prejudice as to Plaintiff where
the contract being without notice or opportunity to contest for
plaintiff is dissolved as unconstitutional, illegal and said suspended
alleged conviction and sentence as void, binds no one as the law
will not avail itself to be made lawful and (inter alia) Miller v
Alderhold. 288 US 206, 210 (1933), and Hill v. Ex Ret Wampler
296 US 460, 465 (1936); (f) where evidence expose Attempt
3R Degree Murder without a Statute and therefore an
unconstitional law that is not a crime (inter alia) Ex Parte Siebold
100 US 371(1880), Bond v U.S. 564 US 211, 227 (2011)(per
curiam); (g) where trial judge takes action beyond power
conferred by law (its jurisdiction), renders action non-waveable,
Void, a nullity and inter alia, Hall v. Ames 162 F. 1008 (CA.181.
Cir. 1910), and Cm with v. Hall. 140 A. 626, 631 (Pa.1928); (h)
where Defendants would be forced to agree issuing a Motion for
Modification and (inter alia), Cm with v. Isabel! 467 A.2d 1287
(Pa. 1983), (i) where plaintiff is required to file in custodial district
as a matter of law, and Jacobs v. Giroux. 2015 U.S.Dist. LEXIS
82651 (US.DC.WD.PA), and Brown v. Pa. D.O.C. 81 A.3d 814
(Pa. 2018) i

4) Whether trial court erred in failing to issue restraining Order
against all parties, immediately after plaintiff timely P.C.R.A.
petition, where the facts as plead by plaintiff reveal a complete
miscarriage of justice warranting judicial control over all
immediate parties involved, rather than threaten sanction to
plaintiff for entrusting life to the Administration of Justice ?
Appellant's Brief at 4-5.3
Prior to addressing Appellant's issues, we first must determine whether
we have jurisdiction over his PCRA petition.

"The question of whether a

3 The Commonwealth has not filed an appellate brief.
- 5-

J-S15040-20
[PCRA] petition is timely [filed] raises a question of law. Where the petitioner
raises questions of law, our standard of review is de novo and our scope of
review [is] plenary." Commonwealth v, Brown, 141 A.3d 491, 499 (Pa;
Super. 2016). Any PCRA petition, including second and subsequent petitions,
must either (1) be filed within one year of the judgment of sentence becoming
final, or (2) plead and prove a timeliness exception. 42 Pa.C.S.A. § 9545(b).
Furthermore, the petition "shall be filed within 60 days of the date the claim
could have been presented." 42 Pa.C.S.A. § 9545(b)(2).4
"For purposes of [the PCRA], a judgment [of sentence] becomes final at
the conclusion of direct review, including discretionary review in the Supreme
Court of the United States and the Supreme Court of Pennsylvania, or at the
expiration of time for seeking the review." 42 Pa.C.S.A. § 9545(b)(3). Here,
Appellant's judgment of sentence became final nearly twenty (20 Years ago;
thus, Appellant's 2019 petition was facially untimely, and he was required to
plead and prove an exception to the timeliness requirements. The exceptions
provide as follows.
(1) Any petition under this subchapter, including a second or
subsequent petition, shall be filed within one year of the date the .

4 This subsection was recently amended, effective December 24, 2018, to
extend the time for filing from 60 days of the date the claim could have been
presented to one year. However, this amendment does not apply to
Appellant's PCRA petition because it was filed prior to the amendment's
effective date.

-6-

Av#>

J-S15040-20

judgment becomes final, unless the petition alleges and the
petitioner proves that:
(i) the failure to raise the claim previously was the result
of interference by government officials with the
presentation of the claim in violation of the Constitution
or laws of this Commonwealth or the Constitution or laws
of the United States;
(ii) the facts upon which the claim is predicated were
unknown to the petitioner and could not have been
ascertained by the exercise of due diligence; or
(iii) the right asserted is a constitutional right that was
recognized by the Supreme Court of the United States
or the Supreme Court of Pennsylvania after the time
period provided in this section and has been held by that
court to apply retroactively.
42 Pa.C.S.A. § 9545(b)(l)(i-iii).
Herein, even had Appellant filed the instant PCRA petition in the proper
lower court, as noted supra, he attempts to plead the governmentalinterference exception in his PCRA petition based upon the alleged withholding
of correspondence from him while in prison and previously raised challenges
to aspects of his trial.

However, he has not proven he is entitled to relief

under that exception to the PCRA time-bar. To the contrary, both Appellant's
concise statement of matters complained of on appeal and appellate brief fail
to conform to the Pennsylvania Rules of Appellate procedure prevent and
these deficiencies have prevented meaningful appellate review.

As a result,

Appellant has waived these claims.
This Court has explained:
Rule 1925 is a crucial component of the appellate process because
it allows the trial court to identify and focus on those issues the
- 7-

hs?P .©-“i

J-S15040-20

parties plan to raise on appeal. This Court has further explained
that a Concise Statement which is too vague to allow the court to
identify the issues raised on appeal is the functional equivalent to
no Concise Statement at all.
Tucker, 939 A.2d at 346 (citations and quotation marks omitted).
Instantly, the ten-page, single spaced concise statement Appellant
submitted is not sufficiently concise, contains numerous confusing and vague
contentions, and fails to set forth coherently his issues to be raised on appeal.
Accordingly, we deem all of Appellants issues waived. See, e.g., Jiricko v.
Geico Ins. Co., 947 A.2d 206, 213 (Pa.Super. 2008) (holding that appellant
had waived all of his issues on appeal for his failure to comply with Rule
1925(b), and stating that "while [appellant's five-page [concise] statement
can certainly be characterized as 'lengthy/ the crux of the problem is that the
statement is an incoherent, confusing, redundant, defamatory rant[.]"); see
also Kovalev v. Sowell, 839 A.2d 359, 367 n.7 (Pa.Super. 2003) (stating
that "as a pro se litigant, [an appellant] is not entitled to any particular
advantage because [ ]he lacks legal training." (citation and quotation marks
omitted)).
In addition, it is axiomatic that appellate briefs must materially conform
to the requirements of the Pennsylvania Rules of Appellate Procedure, and this
Court may quash or dismiss an appeal if an appellant fails to comply with
these requirements. See Pa.R.A.P. 2101. "[W]here an appellate brief fails to
provide any discussion of a claim with citation to relevant authority or fails to
develop the issue in any other meaningful fashion capable of review, that claim
-8-

B.8

J-S15040-20
is waived." Commonwealth v. Johnson, 985 A.2d 915, 924 (Pa. 2009), cert.
denied, 562 U.S. 906 (2010) (citations omitted). In addition, "although this
Court is willing to construe liberally materials filed by a pro se litigant, pro se
status

generally

confers

no

special

benefit

upon

an

appellant."

Commonwealth v. Lyons, 833 A.2d 245, 251-52 (Pa.Super. 2003), appeal
denied, 879 A.2d 782 (Pa. 2005) (citation omitted). Accordingly, a pro se
litigant must comply with our procedural rules. See id.
Herein, Appellant's brief falls well below the minimum standards
delineated in the Pennsylvania Rules of Appellate Procedure.

For one, the

argument section of Appellant's brief is not divided into sections addressing
each of the four issues he lists in his statement of questions involved.
Pa.R.A.P. 2116(a), 2119(a). Also, the brief contains irrelevant citation to the
record, and fails to discuss cogently the facts of this case as they relate to
relevant legal authority. Pa.R.A.P. 2ll9(a)-(c).
Moreover, like his concise statement of matters on appeal, Appellant's
brief is rambling and nearly unintelligible.

Therein, Appellant discusses a

myriad of issues most of which do not pertain to the questions before us and
attempts to relitigate claims this Court previously determined lack merit either
on direct appeal or in prior appeals on collateral review. Thus, even if we
liberally construe the materials Appellant filed, including his concise
statement, the lack of pertinent legal argument and other substantial defects
in his appellate brief preclude us from conducting meaningful review. See

-9/^vjpP'

<~i

J-S15040-20
t

/

Pa.R.A.P. 2101; see also Johnson, supra at 924. Accordingly, we affirm the
trial Court's October 15, 2019, Order, albeit for a different reason.5
Appellant also filed with this Court a "Petition to Enforce Judgment",and an "Application for Reconsideration to Bail" on March 4, 2020. "An issue
before a court is moot if in ruling upon the issue the court cannot enter an
order that has any legal force or effect." Se/ectiVe Way Ins. Co. v. Hosp.
Grp. Servs., Inc., 119 A.3d 1035, 1040 (Pa.Super. 2015) (citation omitted).
In light of our foregoing disposition, we decline to address these motions, and
they are dismissed as moot.
Order affirmed.

Petition to Enforce Judgment and Application for

Reconsideration to Bail dismissed as moot. Jurisdiction relinquished.
Judgment Entered.

uZ
Joseph D. Seletyn, Esdy
Prothonotary

Date: 3/2Q/2Q2Q

5 "It is well-settled that we may affirm the trial court's order on any valid
basis." Seneca Res. Corp. v. S&T Bank, 122 A.3d 374, 387 (citation
omitted).
- 10 -

Kpp. B. )£>

App. C.l—12

: r

ANTONIO SIERRA, Ph.D,
Plaintiff

IN THE COURT OF COMMON PLEAS
OF ERIE COUNTY, PENNSYLVANIA
CIVIL LAW DIVISION

v.
JACK DANERI, MICHAEL CLARK, TAMMY
WHITE, SAMUEL KUNE, JOSH SHAPIRO,
Defendants
;v

y-y.

• *«

NO. 12719-2019

1

ORDER OF COURT

AND NOW, this

tLf day of October 2019, the Motion for Leave to Proceed In Forma

- Pauperis is DENiEQ.The^ocument tiie Peiitiohelrfi^

'sib

^OlS^B^t/^asaMbdpn^r Post

- Conviction Collateral Relief. The Petitioner has not been convicted of any crimes in Erie County,
''Pennsylvania, therefore thfere is no basis fora PCRA Petition.
.............. S1"—'

•

'

‘

The Petitione<spriqr request for In Forma Pauperis status was denied by the Honorable Judge
■;,U

i'i’ ■

-:

'

.

-

Daniel Brahender, Jr., dated April 13, 2016, which-Order was affirmed by the Superior Court on
November 23, 2016. The Petitioner's Application For Reconsideration was DENIED by tire Supreme
Court of Pennsylvania on December 5,2016.
By Order dated January IS, 2017, Judge Braberider also distnissed a "PEROGATIVE WRIT" filed
bythe Petitioner for lack of jurisdiction.
^ nothlng to do w*th *iis criminal convictions in Lebanon
County. The Petitioner is advised.that he may face sanctions for any further abuse of tire judidalprpcess ^
in Erie County in -which he seeks relief related to his Leba an County criminat convictions.

■ii

BYTHE

o

5r^
Cunningham

J-

O

ro

aa

r-,

OL

.»—v

C3

o

3C

o mo
o _ - ~-~o
o-n cn

g

I

- g

3r

Cc:

Antonio Sierra # DV0686
SCI-AIbion

=2
G3
CO

CD

■^cn
G
G

cr -

«g
•

CM

a
C\

? 5 2 -3 .

s

CS
i—f

4-1

a>
a

c'

ANTONIO SIERRA,

IN THE COURT OF COMMON PLEAS
Plaintiff
OF ERIE COUNTY, PENNSYLVANIA

v.

CIVIL DIVISION
COMMONWEALTH OF
PENNSYLVANIA, et al.
Defendants

NO. 10808 of 2016
o

r—3

<=>

O

-oC,
2°rn

c-_

^
o

—!i'

L,

S--XD

O

OPINION

The Appellant, Antonio Sierra, appeals from the Order entergd April 13,_2gI61 denying.^
Appellant’s “Application By Obligation to Continue In Forma Pauperis Pa.R.A.P. §gfp55Jrand g

_<g .H
if'-

28 USC §1915(a)(l).” This Opinion is in response thereto.

S

cn

BACKGROUND
In September, 1998, following a jury trial at Docket No. 1239 of 1997 in the Court of
Common Pleas of Lebanon County, Pennsylvania, Appellant was convicted of multiple counts
each of Criminal Attempt (Homicide), Aggravated Assault, Recklessly Endangering Another
Person, Unlawful Restraint, Arson, Theft By Unlawful Taking, Robbery and Criminal
Conspiracy.1 Appellant was sentenced by the Court of Common Pleas of Lebanon County in
October, 1998. In December, 1998, Appellant-filed a direet-apped- with" the~SuperiOr Coirft^oF
Pennsylvania. In October, 1999, the Superior Court dismissed the appeal. Upon collateral
attack, appellate rights were reinstated in May, 2000. Although this Court is unaware of the
disposition upon direct appeal to the Superior Court, the Court Docket at No. 1239 of 1997
reflects that in March, 2004, Appellant filed in Lebanon County a Motion to Vacate and Set
Aside Illegal Sentence and/or For Writ of Habeas Corpus. The motions were denied as untimely.

y

I

<

18 Pa.C.S.A. §901(a), 18Pa.C.S.A. §2702(a), 18Pa.C.S.A. §2705, 18Pa.C.S.A. §2902(1), 18Pa.C.S.A. §330Ll(a)
18 Pa.C.S.A. §3921, 18 Pa.C.S.A. §3701 (a) and 18 Pa.C.S.A. §903(a), respectively.

)

1
App.cz

il

€
%
i

{SssrEK--rt-

i Slate

ym.m?

<\

A Notice of Appeal was filed with the Superior Court in April, 2004. In October, 2004, the
Superior Court affirmed the trial court’s determination.2 In April, 2005, the Pennsylvania
Supreme Court denied the Petition for Allowance of Appeal.3 Docket activity also reflects
subsequent involvement by the Commonwealth Court of Pennsylvania.4
Appellant is currently incarcerated at SCI Albion, located in in Erie County,
Pennsylvania. On March 21, 2016, Appellant filed in the Court of Common Pleas of Erie
County a pro se document entitled, “Prerogative Writ (In the nature of a Complaint in Equity and
In die nature of an Imperfect P.C.R.A. Motion)”. Concurrently, Appellant filed an “Affidavit at
Large”.5 The Prothonotary docketed the matter. The docket does not reflect that any filing fee
was charged.
On March 23, 2016, Appellant filed an “Application By Obligation To Continue In
Forma Pauperis Pa.R.A.P. 555, 551 and 28 USC §1915(a)(l)’\ Concurrently, Appellant filed a
letter with the Clerk of Courts, and a Praecipe for judicial assignment. The matter was assigned
to the undersigned for disposition. On April 13, 2016, the Court denied the application to
proceed in forma pauperis. On May 2, 2016, Appellant filed the instant appeal with the Superior
Court from the Order denying the IFP request. Subsequently, on May 9, 2016, Appellant filed
another petition for IFP status.6

1 See Commonwealth v. Sierra, 864 A.2d 583 (Pa.Super. 2004).
3 See Commonwealth v. Sierra, 872 A.2d 1199 (Pa. 2005).
4 See Antonio Sierra v. Pennsylvania Dept, ofCorrections, Commonwealth Court of Pennsylvania Docket No 2413
CD 2015.
The Appellant’s claims in the Prerogative Writ and Affidavit are nearly indiscernible, presented in nonsensical,
run-on sentence fashion. Both documents contain reoccurring themes of illegal sentence, “wrongful commitment
and false imprisonment which commenced an action in Lebanon”, loss of liberty, reference to a grievance, and
interference with a fianc6 and a marriage contract.
6 The second IFP petition filed May 9,2016 remains pending, in light of the Notice of Appeal filed May 2,2016.

2
/4ppC 2>

ft.l3.-a.

\

l

The matter has already been assigned for disposition and is pending before the Court.
There is no indication any filing fee was charged concerning the “Prerogative Writ (In the nature
of a Complaint in Equity and In the nature of an Imperfect P.C.R.A. Motion)” and supporting
“Affidavit at Large”. The docket does not reflect a fee was charged. No receipt or invoice for
any filing fee was attached to the IFP application. The matter is pending before the trial court.
This appeal is without merit and should be dismissed. The Prothonotary is hereby directed to
transmit the record to the Superior Court.

-\

t

y

CONCLUSION
For the reasons stated herein, this appeal must be dismissed as wholly lacking in merit.

BY THE COURT:

Daniel J. Boabender, Jr., Judge

\

cc:

Antonio Sierra, Inmate No. DV0686, SCI Albion, 10745 Route 18, Albion, PA 16475,
LEGAL MAIL
District Attorney’s Office, Erie, PA
Commonwealth of Pennsylvania Attorney General, 16th Floor, Strawberry Square,
Harrisbprg, PA 17102
Department of Corrections, Nancy Giroux, Retired Superintendent, SCI Albion, c/o L.
Nbil, Esq., Office of Chief Counsel, 1920 Technology Parkway, Mechanicsburg PA
f7050

3

App ki

R.1 U.

ANTONIO SIERRA
Plaintiff
v.

IN THE COURT OF COMMON PLEAS

COMMONWEALTH OF
PENNSYLVANIA, et al.
Defendants

NO. 10808-2016

OF ERIE COUNTY, PENNSYLVANIA

ORDER
AND NOW, to wit,

o

r-3

c=>

o
r*
53 ~X>
05

T

c-.
C5
to

o
PIS'
53-0

crx

-0T5'

Jay of July, 2016, it is hereby ORDERED.^ S
^0

rn‘

•p. co

jr

ADJUDGED, and DECREED,.ttot,&^Respondents.shall..file.jesponsiye.pleadingai^heIl.
:

....- - ............

-

c/J

Defendant’s Prerogative Writ (in the Nature of a Complaint in Equity and In the nature of an
Imperfect PCRA Motion) and the supporting Affidavit within 20 days of the date of this Order.

BY THE COURT:
%

DANIEL

cc:

Antonio Sierra, Inmate No. DV0686, SCI Albion, 10745 Route 18, Albion, PA 16475,
LEGAL MAIL
District Attorney’s Office, Erie, PA
Commonwealth of Pennsylvania Attorney General, 16th Floor, Strawberry Square,
Harrisburg, PA 17102
Department of Corrections, Nancy Giroux, Retired Superintendent, SCI Albion, c/o L.
Neil, Esq., Office of Chief Counsel, 1920 Technology Parkway, Mechanicsburg, PA
17050 f

,4 •

(0
jAfP'CS

o
o
c:
-------- -'-5'

¥•
ANTONIO SIERRA,

IN THE COURT OF COMMON PLEAS
Plaintiff
OF ERIE COUNTY, PENNSYLVANIA

v.
CIVIL DIVISION
COMMONWEALTH OF
PENNSYLVANIA, et al.
Defendants

NO. 10808 of 2016

OPINION
The Plaintiff, Antonio Sierra, is currently incarcerated at SCI Albion, located in Erie
County, Pennsylvania, following convictions in Lebanon County, Pennsylvania, in 1998.

The

matter is before the Court on Plaintiffs pro se “Prerogative Writ (In the Nature of a Complaint
in Equity and In the Nature of an Imperfect P.C.R.A. Motion)”, a supporting “Affidavit at Large”
and a second request before this Court to proceed in forma pauperis, captioned “Motion For
Leave To Proceed In Forma Pauperis (In the Nature of an Application)”. Also before the Court
is Respondent District Attorney of Erie County’s Motion to Dismiss Plaintiffs “Prerogative Writ
(In the Nature of a Complaint in Equity and In the Nature of an Imperfect P.C.R. A. Motion)”.
For the reasons set forth herein, the Court will grant Plaintiffs second request to proceed
in forma pauperis concerning the Prerogative Writ; the Court will grant Defendant’s Motion to
Dismiss, and the Court will deny and dismiss the Prerogative Writ.

BACKGROUND
The limited procedural background known to the Court is set forth herein. In September,
1998, following a jury trial at Docket No. 1239 of 1997 in the Court of Common Pleas of
Lebanon County, Pennsylvania, Plaintiff, Antonio Sierra, was convicted of multiple counts each
of Criminal Attempt (Homicide), Aggravated Assault, Recklessly Endangering Another Person,

1

ff.SQa

*

5

- tr
Unlawful Restraint, Arson, Theft By Unlawful Taking, Robbery and Criminal Conspiracy.1
Plaintiff was sentenced by the Court of Common Pleas of Lebanon County in October, 1998. In
December, 1998, Plaintiff filed a direct appeal with the Superior Court of Pennsylvania. In
October, 1999, the Superior Court dismissed the appeal. Upon collateral attack, appellate rights
were reinstated in May, 2000.
Although this Court is unaware of the dispositi on upon direct appeal to the Superior
Court, the Court Docket at No. 1239 of 1997 reflects that in March, 2004, Plaintiff filed in
Lebanon County a Motion to Vacate and Set Aside m^&nt^ce
Corpus. The motions were denied as untimely.
A Notice of Appeal was filed with the Superior Court in April, 2004. In October, 2004,
the Superior Court affirmed the trial court’s determination.2 In April, 2005, the Pennsylvania
Supreme Court denied the Petition for Allowance of Appeal.3 Docket activity also reflects
subsequent involvement by the Commonwealth Court of Pennsylvania.4
Plaintiff is currently incarcerated at SCI Albion, located in in Erie County, Pennsylvania.
On March 21, 2016, Plaintiff, pro se, filed in the Court of Common Pleas of Erie County a
“Prerogative Writ (In the Nature of a Complaint in Equity and In the Nature of an Imperfect
P.C.R.A. Motion)”. Concurrently, Plaintiff filed an “Affidavit at Large”.5 The Prothonotary of
Ene County docketed the matter. The docket does not reflect that any filing fee was charged.

18Pa.C.s.A. §901(a), 18Pa.C.S.A. §2702(a), 18Pa.C.S.A. §2705,18Pa.C.S.A. §2902(1) 18 PaC.S.A. §3301(a),
18 Pa.C.s.A. §3921, 18 Pa.C.S.A. §3701(a) and 18 Pa.C.S.A. §903(a), respectively.
3 See Commonwealth v. Sierra, 864 A.2d 583 (PaSuper. 2004).
See Commonwealth v. Sierra, 872 A.2d 1199 (Pa. 2005).
CD2015°mO S’6*7** V' Pennsylvania Dept- °fSections, Commonwealth Court of Pennsylvania Docket No. 2413
l“fTlClaimr^e Prer0gative Writ and Affidavit

nearly indiscernible, presented in nonsensical, run-

on sentence fashion. Both documents contain reoccuiring themes of illegal sentence, “wrongful commitment and
^tS^PnS0I“fkent ™hlC* commenced “ action in Lebanon”, loss of liberty, referenced a grievance and
interference with a fiance and a marriage contract As can be gleaned from the Writ, Plaintiff Challenge’s hit

2

W 2.

4 /

£
On March 23, 2016, Plaintiff filed an “Application By Obligation To Continue In Forma
Pauperis Pa.R.A.P. 555, 551 and 28 USC §1915(a)(1)”. Concurrently, Plaintiff filed a Praecipe
for judicial assignment. The matter was assigned to the undersigned for disposition. On April
13, 2016, the Court denied the application to proceed in forma pauperis. On May 2, 2016,
Plaintiff filed an appeal with the Superior Court from the Order denying the IFP request.
Subsequently, on May 9, 2016, Plaintiff filed another petition for IFP status.6
On July 14, 2016, the Superior Court denied Plaintiffs “Application for Clarification”.7
On July 26, 2016, this Court filed its 1925(a) Opinion concerning Plaintiffs appeal from
the Order of April 13, 2016 denying the initial request to proceed in forma pauperis.
Concurrently, the Court directed the Defendants to file responsive pleadings to the Plaintiffs
Prerogative Writ and supporting Affidavit.
On August 10, 2016, the District Attorney of Erie County filed a Motion to Dismiss
Plaintiffs Prerogative Writ.
On August 12, 2016, Plaintiff filed an Emergency Notice of Appeal, an Application for
Relief, and an Application to Proceed In Forma Pauperis with the Pennsylvania Supreme Court
concerning this Court’s 1925(a) Opinion filed July 26,2016, and the Order directing Defendants
to file responsive pleadings to the Prerogative Writ.
On September 1, 2016, Petitioner filed with the Pennsylvania Supreme Court a “Pro-Se
Notice to be Heard... Before a Judge”.
On November 1, 2016, the Pennsylvania Supreme Court quashed Plaintiffs Emergency
Notice of Appeal, and dismissed as moot The Application for Relief, the Application to Proceed

conviction in Lebanon County, and contends wrongful imprisonment has infringed upon his personal liberties and
finances.
6 The second IFP petition filed May 9,2016 is pending.
7 The Application for Clarification does not appear on this docket.

3

In Forma Pauperis, and the Pro Se Notice to be Heard Before a Judge. On December 2, 2016,
the Pennsylvania Supreme Court denied the Application for Reconsideration of its Order of
November 1,2016.
With the resolution of Plaintiffs various appeals and applications to our appellate courts
at this docket number, remaining for disposition are: the pro se “Prerogative Writ (In the Nature
of a Complaint in Equity and In the Nature of an Imperfect P.C.R.A. Motion)” filed March 21,
2016 and supporting “Affidavit at Large”; the “Motion for Leave to Proceed In Forma Pauperis
(In the Nature of an Application)” filed May 9,2016; and Defendant’s Motion to Dismiss.

DISCUSSION
L The Plaintiffs “Motion for Leave to Proceed In Forma Pauperis (In the Nature of an
ApplicationV’ filed May 9,2016.
Upon review of the Motion and attachments thereto, and in the interests of judicial
economy, the Court will grant the motion, with regard to the pending Prerogative Writ.8

2. The “Prerogative Writ (In the Nature of a Complaint in Equity and In the Nature of an
Imperfect P.C.R.A. Motion!” and the District Attorney of Erie County’s Motion to Dismiss
As can best be gleaned from the Prerogative Writ, Plaintiff asserts his convictions and
sentences are illegal, and claims Montgomery v. Louisiana, 136 S.Ct. 718 (2016) requires this
Court to give retroactive effect to Alleyne v. U.S., 133 S.Ct. 2151 (2013), which affords him
relief. Through the vehicle of an extraordinary writ, or “prerogative writ”9, the Plaintiff requests

However, there is no indication any filing fee was charged concerning the Prerogative Writ The docket does not
reflect a fee was charged. No receipt or invoice for any filing fee was attached to the IFP application.
9 «

Extraordinary writ (17c) - A writ issued by a court exercising unusual or discretionary power. Examples are
certiorari, habeas corpus, mandamus, and prohibition. - Also termed prerogative writ. ’’ Black’s Law Dictionary
__ (10th ed. 2014).

4

App' C-*l

the Court to exercise unusual or discretionary power in this civil action by awarding him certain
remedies for the alleged illegal convictions and/or illegal sentences.10 See Prerogative Writ, pp.
3-4. The crux of Plaintiffs claims in the Prerogative Writ is that his conviction in Lebanon
County, which adversely impacts various liberties and secondarily, his finances, was wrongfully
obtained.
The PCRA is intended to be the sole means through which post conviction relief can be
sought. 42 Pa.C.S.A. §9542; Commonwealth v. Horn, 32 A.3d 697 (Pa. 2011). Only in the very
rare case where an issue is not cognizable under the PCRA can it be raised through an alternative
method. Commonwealth v. Taylor, 65 A.3d 462, 466 (Pa. Super. 2013). However, where a
petitioner is claiming an illegal sentence, the motion must be treated as a PCRA. Id. Petitioner’s
claims that his convictions and sentences are illegal, as articulated within the Prerogative Writ,
fall squarely within the PCRA and must be treated as such. Petitioner cannot circumvent the
PCRA by couching claims which are cognizable under the PCRA as equitable claims or as (civil)
“imperfect PCRA” claims.
However, this Court is unable to treat Petitioner’s Prerogative Writ as a miscaptioned
PCRA petition. Jurisdiction for a collateral attack upon Plaintiffs convictions/sentences does
not lie in Erie County, Pennsylvania.
The subject matter jurisdiction of a criminal court extends to the offenses
committed within the county of trial. Commonwealth v. Guess, 266 Pa.Super. 359,
378, 404 A.2d 1330, 1339 (1979). Subject matter jurisdiction in the trial court
exists by virtue of presentation of prima facie evidence that a criminal act
occurred within the territorial jurisdiction of the court. Commonwealth v.
Goldblum, 498 Pa. 455, 475, 447 A.2d 234, 244 (1982). See Commonwealth v.
Conforti, 533 Pa. 530, 626 A.2d 129 (1993) (a court has no jurisdiction Over an
offense unless it occurred within the county of trial, or unless by some statute it
need not occur within the county of trial).

w

10 The remedies Plaintiff seeks include the following: release on bail; release on non-monetary conditions; an
injunction prohibiting access to his finances; an Order declaring his sentence, conviction, and commitment as
unlawful, wrongful and/or void. See Prerogative Writ, pp. 17-19.

5

*>■

Comonwealth, v. McNeil, 665 A.2d 1247, 1251 (Pa. Super. 1995). See also, Commonwealth v.
Hendrickson, 684 A.2d 171,179 (Pa. Super. 1966), affdllA A.2d 315 (Pa. 1999).
Jurisdiction over Plaintiffs PCRA claims properly lies in Lebanon County, Pennsylvania,
where Plaintiff’s convictions occurred. Thus, this Court has no jurisdiction to review the merits
of the claims asserted in the Prerogative Writ.

CONCLUSION
i

—.

The Court will grant Plaintiffs “Motion for Leave to Proceed In Forma Pauperis (In the
Nature of an Application)” filed May 9,2016. The Court will grant the District Attorney of Erie
County’s Motion to Dismiss Plaintiffs “Prerogative Writ (In the Nature of a Complaint in
Equity and In the Nature of an Imperfect P.C.R.A. Motion)”. The Court will deny and dismiss
the Plaintiff s pro se “Prerogative Writ (In the Nature of a Complaint in Equity and In the Nature
of an Imperfect P.C.R. A. Motion)”. An Order consistent with this Opinion will be entered.

BY THE COURT:
y

//»

Date

cc:

Daniel J. Brabender, Jr., Judge

2.

Antonio Sierra, Inmate No. DV0686, SCI Albion, 10745 Route 18, Albion, PA 16475,
LEGAL MAIL
Michael E. Bums, Esq., Assistant District Attorney, Erie County
Commonwealth of Pennsylvania Attorney General, 16th Floor, Strawberry Square,
Harrisburg, PA 17102
Department of Corrections, Nancy Giroux, Retired Superintendent, SCI Albion, c/o L.
Neil, Esq., Office of Chief Counsel, 1920 Technology Parkway, Mechanicsburg, PA
17050 ‘

6
v4pr c .u

Rfla.

>*v

ANTONIO SIERRA,

IN THE COURT OF COMMON PLEAS
Plaintiff
OF ERIE COUNTY, PENNSYLVANIA

v.
CIVIL DIVISION
COMMONWEALTH OF
PENNSYLVANIA, etal.
Defendants

o

<23

o
o

x
X

o

NO. 10808 of 2016

^

ORDER

o2 5* rnX

—73-0
O®
05

|s 3 55

AND NOW, to-wit, this-"day of January, 2017, upon consideration of5J§§rinftff’s o
“Motion for Leave to Proceed In Forma Pauperis (In the Nature of an Application)” file*f>M^§u9, ^
iQ;
reof-----an Imperfect P.C.R.A. Motion)” filed March 21, 2016; and the District Attorney of Erie
County’s Motion to Dismiss Plaintiffs “Prerogative Writ (In the Nature of a Complaint in
Equity and In the Nature of an Imperfect P.C.R.A. Motion)” filed August 10, 2016, the Court
hereby ORDERS the following:
1. Plaintiff s “Motion for Leave to Proceed In Forma Pauperis (In the Nature of an
Application)” filed on May 9,2016 is GRANTED.
2. Plaintiff s “Prerogative Writ (In the Nature of a Complaint in Equity and In the
Nature of an Imperfect P.C.R.A. Motion)” filed on March 21, 2016 is DENIED AND
DISMISSED for lack of jurisdiction.
3. The District Attorney of Erie County’s Motion to Dismiss Plaintiffs “Prerogative
Writ (In the Nature of a Complaint in Equity and In the Nature of an Imperfect P.C.R.A.
Motion)” filed August 10, 2016 is GRANTED, as the Court lacks jurisdiction to address
Plaintiff’s claims.
BY THE COURT:
* jF &

j \1\U^GK5
l
TV.ypstars i
D&ie ll^hl Unra \
cc:

~

Daniel J. B

nder, Jr., Judge

Antonio Sierra, Inmate No. DV0686, SCI Albion, 10745 Route 18, Albion, PA 16475,
LEGAL MAIL
Michael E. Bums, Esq., Assistant District Attorney, Erie County
Commonwealth of Pennsylvania Attorney General, 16th Floor, Strawberry Square, Harrisburg PA
17102 .
DepartmenfTrfCorrections, Nancy Giroux, Retired Superintendent, SCI Albion, c/o L. Neil,
Esq., Office of Chief Counsel, 1920 Technology Parkway, Mechanicsburg, PA 17050

APPENDIX, A
[To Motion by 14th Amendment]

1

^4iPP" Ci’z.

STATEMENT OF THE CASE
Petitioner’s statement of the case is provided as Exhibit 5 to this petition.
Petitioner incorporates paragraph 1 - 67, as though set forth fully herein.

STATEMENT OF REASON FOR ALLOWANCE OF APPEAL
QUESTION No. 1
Appellate Courts misapprehended Bond vs. United States, 564 U.S. 211, 131
S. Ct. 2355 (2011(Per Curiam)) and Commonwealth vs. Albrecht, 994 A. 2d
1091(Pa.

2010).

Petitioner asserted

Defendants confiscated

privileged

correspondence on September 10, 2019. He first learned of this by their notice
regarding "disposition or confidentially destroy" privileged correspondence
submitted, not on the dates the mail was actually issued; Yet an additional
twelve days later, and even up to one year of Defendants unreasonable seizure,
therefore in violation of the Constitution and Laws of the United States and
Supreme Court of Pennsylvania. Petitioner showed the information of
September 10, 2019 could not have been obtained earlier, despite the exercise
of due diligence, Albrecht, 994 A.2d @ 1094, and in violation to Constitutional
Amendments; See: U.S. vs. Place, 462 U.S. 696, 701, 103 S. Ct. 2637(1993)\
Petitioner further showed "any condition of his incarceration is illegal to meet
government interference exception of PCRA timeliness requirements, id.
Albrecht @ 1095.
Petitioner asserted his custody and sentence for Criminal Attempt to Commit
Third Degree Murder ("Attempt 3rd Degree Murder) is illegal, causing
substantial injury by being incarcerated for a charge that does not have a State
Statute, exceeds the Legislature’s power because it violates the due process
2

^spp. X}. ^

clause, and it is "[a]n offense created by an unconstitutional law [and] the courts
have held it is not a crime [,] id. Bond, 564 U.S. @ 226-27.
The Appellate Court determined "Appellate brief fell well below the minimum
standards delineated in the Pennsylvania Rules of Appellate Procedure," to
affirm dismissal and waiver of claims, the Court recognized but declined to
address the unconstitutionality of petitioners charge in Attempt 3rd Degree
Murder. Contrary to Bond, Supra infra; and Commonwealth vs Milchak, 2019
Pa. Super. Unpub. LEXIS 2526, 219 A.3d 279 (2019); See, exhibit 1
QUESTION No. 2
Appellate Court overlooked the significance of Bond Supra Infra. And
Commonwealth vs. Milchak, 2019 Pa. Super. Unpub. LEXIS 2526, 219 A.3d
279(2019).
In petitioner’s brief, he complied with the rules, providing from The Statement
of the Case to the Conclusion - six sections with twenty-three subsections
covering the facts material to litigate. For example, petitioner provided the
requirements to Albrecht Supra. Infra; and the Constitutional Amendments, Id.
@ pgs. 18-23.
He addressed the timeliness of the cause assuming the facts were ripe with
actions occurring in 2016 litigation that directly prejudiced petitioner on account
the lower Courts Order that was presumably a 1925 Opinion without any
features or direction pursuant to the rules made for petitioner, but given to
defendants’, Id. 23 -33; See Exhibit 2 & 4. Petitioner addressed defendants’
erroneous information from 1998 through 2016, while showing with adequate
3

/\£p.-D,A

evidence that the Commonwealth conceded to petitioners allegation to a point,
invalidating his charge as one without a Statute and therefore Unconstitutional,
although the claim was not ripe at the time of the first Writ of Habeas Corpus,
Id. 33 -40 (citing (inter alia) Panetti vs Quaterman, 551 U.S. 930, 994, 127 S.
Ct.2842 (2007)), Id. 41 -49.
He discussed the Supreme Court of the United States Territorial-Custodial
Rules, Id. 49 - 52, and concluded with invoking judicial asylum, Id. 52 - 53;
And, defendants’ did not respond giving petitioner further Federal benefits (if
not also benefit from the State). See: Petition to Enforce Judgement of February
28, 2020 @ pgs. 1-4 (quoting (interalia) Folger v. The Robert G. Shaw, 1847
U.S. App. LEXIS 1, 24, 9 F.CAS 335 (1.St Cir.1847) and Commonwealth vs.
Watts, 23 A.3d 980, 982 n.2 (Pa. 2011) (declining to consider Commonwealth
argument).
In petitioner’s case, the Appellate Court prejudicially exalted (sic) the procedural
rules to the status of substantive objectives,” Fisher vs. Hill, 81 A.2d 860, 863
(Pa. 1951) to now add “shackles” to petitioners prison ensemble; See
Commonwealth vs. Cooper, 27 A.3d 994, 1003 (Pa. 2011) (stating Rules are
not shackles); with Commonwealth vs. Baker, 722 A. 2d 1028, 1029 (Pa.
1999)(dissenting Opinion(stating that “this court routinely reinstated certain
rights where there was valid reason and addressing the liberal construction of
the Rules...)).
Moreover, the Appellate Court could have treated this case like Milchak, where
the Appellate Court, in its own words found Milchak brief, amongst other things
“woefully inadequate because it fails to conform in any material aspect with our
4

rules of appellate procedure; Yet, the court went on to say, “We decline to
invoke waiver because the issue on appeal are clear.” Id. 219 A.3d @ Ph.#4.
(citing Pa. RAP.2111,2114-2119, 2111 (a)(9)); And in Bond, the United States
Supreme Court repeatedly held that “A court has no prudential license to
decline to consider whether the Statute under which [Petitioner] has been
charged lacks constitutional application to [h]is conduct.” 564 U.S. @ 277. An
offense created by an unconstitutional law; said Justice, GINSBURG, “them
court has held is not a crime” (quoting Ex Parte Siebold, 100 U.S. 371, 376, 25
L.Ed. 717 (1880). The Appellate Court misapprehended and overlooked the
authorities petitioner addressed, and the Courts error caused petitioner
prejudice when the lower court had jurisdiction to hear this case as presented.
Conclusion: For these stated reasons petitioner respectfully request for the
court to grant his petition and give him leave to appeal the Orders at issue in
order to finally remove or vacate the illegal conviction Attempt 3rd Degree
Murder and have defendant return the unreasonably seized privileged
correspondence; with all due respect.

pectfuHy,

Mf

/

,

___

Tuesday D. Baker-Couturiaux (Sierra)

Pa. ID.No. DV0686
Antonio Sierra, Ph.D., Pro-Se
Department of Corrections, SCI-Albion
10745 State Route 18, Albion, Pa. 16475

5

App. E.l—27

The Fourth Amendment states in pertinent parts, the right of the people to be secure in their persons,
houses, papers and effects against unreasonable searches and seizure shall not be violated. USCAm.4th
The right not to experience or endure a meaningful interference with retaining possession of personal
property and in maintaining personal privacy from seizure that is unreasonable, Soldal v. Cook County,
506 US 56, 61-65 (1992). This amendment protects interests in avoiding unnecessary disclosure of
personal matters and the right to autonomy and independence in matters of personal decision makings
Whalen v. Roe. 429 US 589, 599-600 (1977). In sum, a seizure that might appear to be lawful at its
inception can violate the Fourth Amendment if the manner of execution unreasonably infringes upon
interests protected by the Constitution, See: Illinois v. Caballes. 543 US 405, 407 (2005).
The Sixth Amendment states in pertinent parts [an] “accused shall enjoy the right to a speedy or
public trial by an impartial jury of the State and district . . .which shall have been previously
ascertained by law, and ... to have the Assistance of Counsel for his defense. T JSC Am 6 th This
Constitutional Amendment have as its overriding purpose in the protection of the accused from
Prosecutorial and Judicial abuses; Kelo v. City of London. 545 US 469,491 (2005);And, is a right that
is personal to the accused, Gannett Co, Inc., v. DePasquale. 443 US 368, 370-80 (1979). It requires a
Jury trial without additional burdens, such that where “a judge inflict punishment that the jury verdict
alone does not allow, the jury has not found all the facts “which the law makes essential to the
punishment [and] the judge exceeds his proper authority,” Blakely v. Washington. 542 US 296, 304
(2004). Where a judges authority to impose an enhances sentence depends on finding a specified fact
(as in Apprendi) one of several specified facts (as in Ring) or any aggravating fact (as here), it remains
the case that the jury verdict alone does not authorize the sentence. The judge acquires that authority
only upon a finding some additional fact. Because the State’s sentencing procedure did not comply
with the Sixth Amendment, petitioners sentence is invalid. Id. @305.
19.

Avpp. H- l

The Fourteenth Amendment states in pertinent parts: No state shall make or enforce any law
which shall abridge the privileges or immunities of citizens of the United States, nor shall any State
deprive any person of life, liberty or property, without due process of law; USCAm-M01.
The due process entitles Appellant to the prevention of unjustified or mistaken deprivations and
the promotion of participation and dialogue on the decision making process, Marshall v. Jerrico Inc..
446 US 238, 242 (1980); this entitled impartial and disinterested tribunal is a guarantees that life,
liberty and property will not be taken on the basis of an erroneous or distorted conception of the facts
or of the law, Id. with assurance the judge is not predisposed to find against him, Id. and Joint Fascist
Committee v. McGrath. 341 US 123, 172 (1951)(FRANKFURTER J, concurrence). It protects
Appellant whether as Plaintiff or Defendant, Logan v. Zimmerman Brush Co. 455 US 422,429 (1982);
Paul v Davis, 424 US 693, 710, n.5 (1976); protects “cause of actions,” Logan. 455 US @ 428, the
right to exclude others and the right to security under the bundle of rights, Bums v. PA.DOC.. 544
F.3d 279, 287 (Ca.3rd. Cir. 2008); the right to have local laws administered judicially and have a this
national right that is the property of every citizen, Murray v. Magnonia Petroleum Co.. 23 F.2d 347,
348 (5th Cir. 1927). It is a Due Process guarantee to impartiality that entitles Appellant the right before
a Federal and State Agencies and Courts, R. v. Cmwlth. Depart’ of Public Welfare. 636 A.2d 142,152
(Pa. 1994); Shah v. State Bd. of Medicine. 584 A.2d 783, 792 (Pa.Cmwlth 1991); Nesses v. Shepard.
68 F.3d 1003 (7th Cir. 1995)(independent right); Great Western Mining & Mineral Co. v. Fox
Rothchild. LLP.. 615 F.3d 159 (3rd Cir. 2010)(impartial forum-citing Nesses); Cmwlth v. Gulluta,
716 A.2d 663 (Pa.Super 1998)(impartial tribunal); It is the fundamental right to notice and.opportunity
to be heard in a meaningful time and in a meaningful manner [ and ] before being condemned to suffer
grievous loss of any kind, Matthew v. Eldridge, 424 US 310, 399 (1976); a right to contract, engage
4

in any occupation of life and in the right to acquire useful knowledge in one’s orderly pursuit of
happiness, Paul, 424 US @722, n.10 (1976), Meyers v. Nebraska, 262 US 390, 399(1923).
20.

App. E.c^L

A. ACCESS TO THE COURT AFFECTED BY IMPROPER DENIAL
In this present case, Senior Judge Cunningham and Judge Mead [herein trial court “Judges”],
entered an Order that is manifestly unreasonable to constitute an abuse of discretion when denying
Appellants Ifp- and PCRA- motion(s) on matters unrelated to the initial cause and matters not of
Appellants own doing, Grady v Frito-Lay, 836 A.2d 1038, 1046 (Pa. 2003).
In Amrhein [vs. Amrhein.]. a panel of the Superior Court on pauperism stated that a “trial court must
focus on whether the person can afford to pay and cannot reject allegations contained in an application
without conducting a hearing, Id. 903 A.2d 17, 20 (Pa.Super 2006)(citation omitted). The panel of the
Amrhein Court through another case reiterated that a “trial court disbelief of averment in an Ifp
application requires the Court to hold an evidentiary hearing to determine the veracity of the claims of
the inability to pay costs. Id. at 24 (citation omitted).
Initially, Mr. Sierra, made the trial court-Erie aware of his financial limits in his PCRA-motion of
September 25, 2019, respectively informing the court that

have $ 80.17 in my prison account

excluding cost in mailing this action [and] I have been permitted to proceed in forma pauperis on
the United States District Court Western District of Pennsylvania,” Id.R.15a. Two days later, He
filed a second Ifp-motion with an affidavits in support on September 27, 2019, Id.R.49a-R.51a.
Although the balance of $ 64.02 does not appear on that document due to institutional problems with
up-dating their Kios system, Appellant did state and provide all the necessary information regarding
his income, assets and liabilities pursuant to the laws of the State.
Pennsylvania Rules of Civil Procedure 240(b), states that “a party who is without financial resources
to pay the cost of litigation is “entitled,” to proceed in forma pauperis.

21.

Subsection (j) states that “simultaneous with the commencement of an action or proceeding or the
talking of an appeal, a party filed a petition for leave to proceed in forma pauperis, the Court, prior to
action on the petition may dismiss the action, proceeding or appeal if the allegations of poverty is
untrue, of if it is satisfied that the action, proceeding or appeal is frivolous. Pa.R.Civ. P. 240(b) & (j).
Moreover, section 9542 provides for :
“an action which person “convicted of crimes they did not commit or serving unlawful
sentence may obtain collateral relief’ for an action by which person can raise claims which are
properly a basis for Federal habeas Corpus relief. The action established in this subchapter shall be
the sole means for obtaining collateral relief...” Id. 42 Pa.C.S. § 9542.(emphasis mine).
In this case, speaking for the Court, Senior Judge Cunningham denied the Ifp-motion outright and/
or straight out, and then after mentioning the PCRA- motion went on to explain that:
The Petitioner’s prior request for in forma pauperis status was denied by the Honorable Judge Daniel
Brabender Jr. dated April 13, 2006, - which Order was affirmed by the Superior Court on November
23, 2016. The Petitioners Application for Reconsideration was denied by the Supreme Court of
Pennsylvania on December 5,2016. By Order dated January 13,2017, Judge Brabender also dismissed
a “Prerogative Writ,” filed by the Petitioner for lack of jurisdiction. As Petitioner knows, Erie County
has nothing to do with his criminal conviction in Lebanon County. The Petitioner is advised that he
may face sanctions for any further abuse of the judicial process in Erie County in which he seeks relief
related to his Lebanon County criminal convictions. Id.
Contemporaneously, Judge Mead also denied Appellants third-Ifp-motion before Appellate Court
finally allowed him pauperism, and in this action the trial court judges committed an error of law,
Amrhein, 903 A.2d @19 (trial court resolution of Ifp-motion will be reversed if the Court abused its
discretion or committed an error of law).
22.

App- E-H

In this appeal, Appellant filed his notice of appeal with added documents to the Superior Court in
October 28,2019, Yet, he was faced with a financial balance of$ 90.25 for appeal purposes, Id.R.53aR.54a; And still needed to file papers with the Court; These acts prompted him to once again ask the
trial Court-Erie to accept his IQ)- application on November 18,2019, through an Application by Leave
for Court Action in Matters. Id.R.68a.
Appellant then briefly explained the filing history to include a third-Ifp-motion that the court may
act upon and stated that with pauperism, he would be able to have transcripts filed while he paid in
installments what he could not do in one lump sum, Id.R.68a @ 1-9. The Ifp-motion came with an
Affidavits in support of the motion and an income source, employment, financial institutions, assets,
persons relying on Appellant, income changes, debts, and a financial account statement for the past
12-months evidencing his willingness to proceed, Id.R49a-R.51a. On November 26, 2019, the trial
court judges denied the application and Ifp-motion and for the reasons set forth in October 15,2019s’
Order, Id.R.68a.
In this case, the trial court judges did not take any interest on the averments truth to Appellants
inability to pay, did not take interest in his assets, liabilities or expenses and rather, denied the
pauperism status on matters that occurred during 2016-2019 Litigation and without giving Appellant
a forum to defend or explain what actually was the issue at the time and that Defendants would be
forced to agree.
As the trial court judges denied Appellants Ifp- and PCRA motions, this action cause Him prejudice
and to undergo a procedure that snarls and obstacles, violating (among other things), his right to due
process, Bartone v. United States. 375 US 52, 54 (1963,), and constitute an improper denial of the
Access to the Courts, Grant v. Blain. 868 A.2d 400,402 (Pa.2005). This court should grant Appellants
relief to proceed to the merits of his claims, and/or alternatively grant him legal counsel. Id.

23.

/kpp. ■£« 5

B. THE CAUSE IS TIMELY ASSUMING THE FACTS ARE RIPE
Section 9545 of title 42 states in pertinent parts :”the failure to raise a claim previously was the
result of interference by. government officials with the presentation of the claim in violation to the
Constitution or laws of the United States, Id. 42 Pa.C.S. § 9545(b)(l)(i). Moreover, Appellant must
show that “any ofthe conditions ofhis incarceration were illegal’ as required to meet the government
interference exception to the PCRA’s timeliness requirements.” Commonwealth v. Albrecht, 994 A.2d
1091,1095 (Pa.2010)(emphasis mine); cf. 42 Pa.C.S. § 9542 (similar).
In this case, the time line of events is important as Defendants issued their notices that stated they
were going to dispose of Appellants Privileged Correspondence on September 10, 2019, though this
notice given date was as issued by a third party officer whom called Mr. Sierra to receive the mail in
notices. Each notice had an additional date but each did not come with Privileged Correspondence
the notices asserted to have confiscated awaiting destruction, Id.R.16a-R.23a.
For example, Appellants mails as seized on January 14th, is not reported until August 29th of 2019
and this illegal act occurred for every privileged correspondence alleged to belong to Appellant,
Id.R.16a-R.20a. The date of August 29th as alleged the date of delivery is actually done on September
10 ,2019, twelve additional days later, yet this delivery is simply for the notices alone, Defendants
have retained the privileged correspondence as belonging to Appellant to date that he avers they have
unlawfully seized causing prejudice in violation to the Constitutional rights, Id. Infra. @ pp. 18-20. As
appellant has not placed this mail in the hands of Defendants, nor has there been any probable cause
to believe any negativity on the mails, rather, that the Federal and State Agencies and Courts have
communicated their esteem to have their free information directed to Appellant, these matters are
uniquely different than what occurred in Commonwealth vs. Moore, 928 A.2d 1092 (Pa.Super 2007).
In Moore, the Superior Court was faced with an appeal from the Commonwealth after the Court of
'vj'v

Common Pleas-Philadelphia granted defendants motion to suppress the State’s evidence, Id. 1094-95.
24.

E. (o

On appeal the issue was whether defendant-prisoner, could claim a Constitutional right to privacy
in his non-privileged mail Id. 1095-96. In reading through Federal and State case law, the court went
on to determine a person to (1) have established a subjective expectation of privacy and (2) have
demonstrated that the expectation is one that society recognizes as reasonable and legitimate, Id. 10971101(quoting Commonwealth v. Duncan. 817 A.2d 455, 463 (Pa. 2003)). The Moore panel held
Appellant had no constitutional right to privacy in his non privileged mail (sic) as he placed mails into
the hands of prison officials [and] used coded language. Id. 1102.
In this instant case, Appellant shown a subjective expectation to privacy and one that society has
recognized as reasonable and legitimate as prison walls do not form a barrier separating prison inmates
from the protection of the Constitution. Turner v. S alley. 482 US 78, 84 (1987). Most privileged mails
seized are Attorneys communications, and “[E]ven in jail, or perhaps especially there, the relationship
which the law has endowed with particularized confidentiality must continue to receive unceasing
protection...” Lanza v. New York, 370 US 139, 143-44 (1962). The U.S. Court of Appeals for the
Third Circuit held “opening properly marked incoming attorney or Court mail outside a prisoners
presence, or reading such mail, infringes the Constitution. See, Bieregu v. Reno, 59 F.3d 1445,145051 (3 rd Cir. 1995)(citing other Courts of Appeals). The court held the failure to safeguard attorneyclient confidentiality “chills protected expression and may inhibit the inmates ability to speak, protest
and complain openly without reservations with the court.” Id. at 1452. The U.S. Supreme Court has
ruled the only way to ensure the confidentiality of mail to incarcerated people is to require prison open
legal mail only in the presence of the individual whom it is addressed. Wolf v. McDonnell, 418 US
539, 576-77 (1974); Accordingly, Appellants has shown a subjective expectation of privacy and one
that society recognizes as legitimate where confidential communications is critical not only to promote
the effective legal representation of the clients interest, but also the overall administration of justice.
Hunt v. Blackburn. 128 US 464,470 (18881; In Re Search Warrant B-21778.513 Pa. 429.441 (1987).
25.

In this present case, Appellant issued on September 11, 2019, a Release Form for Privileged
Correspondence after Defendants gave notice about receiving mails and were preparing to discard
the Correspondence and in this prejudice Appellant long before Defendants were letting him know
they were in custody of his privileged correspondence months earlier, yet Defendants were
confiscating mails instead of providing them. See, e.g., 18 USC § 1702 (Obstruction of
Correspondence, Id. § 1701 - Obstruction of Mails, Generally).
On September 17 & 19, of 2019, Appellant again provided Defendants the Release form addressed
above and this time provided the warning adding: “a legal cause will be filed if privileged
correspondence is not released on September 23, 2019 or five days before the given due date,
Id.R.25a-R.27a., no reply was directed from Defendants.
In September 25th, Appellant filed his PCRA motion on the grounds of government interference
with the Appellants ability to access the free flow of information as provided by the government
through the Judiciary an Legal Organizations that Defendants have illegally deprived, causing
prejudice in obtaining the information and Appellants ability to prosecute his case in violation to the
First, Fourth and Fourteenth Amendment to the Constitution of the United States, Id.R.2a-R.3a, See
infra at pp. 18-20.
In this case, Appellant fairly stated that Defendants are intentionally obscuring a substantial amount
of his Privileged Correspondence from reaching him and illegally confiscating said privileged mails
as addressed to Mr. Sierra without probable cause of any illegal act in and of Him, making
Defendants unreasonable seizure an illegal action that is furthered by Appellants incarceration,
sentence and charge that are also illegal, depriving him due process of law in violation to the Fourth,
\

Sixth and Fourteenth Amendment to the Constitution of the United States, Id.R.4a-R.5a; R.6a-R.12a.

26.

A?f>. E-e>

Defendants version of a reply had issued when Mr. Clark stated he nor Ms. White have any idea of
what I am speaking of, Id.R.27a. This false and misleading statement was not supported by Ms.
White whom in turn stated that memos were placed in housing units and either return mail to sender
or destroy, Id.R.26a; And, since these statements are intentional misrepresentations of Defendants
actual knowledge as issued on September 26 and 27 of 2019, Appellant decided his PCRA was the
proper course as deprivation of his substantial privileged correspondence dated back into the 2018
term of litigation remaining confiscated, Id.R..28a-R..30a.
In this, Appellant action satisfied § 9545(b)(l)(i), where he raised government interference with
his claims and further established the conditions of his incarceration is an illegality, pursuant to
Albrecht, 994 A.2d @ 1095. Moreover, he was not required to file a grievance or exhaust
administrative remedies first because Appellant is caused direct prejudice in a process aimed at
tripping him up, Ross v. Blake, 136 S.Ct. 1850, 1856-60 (2016) and secondly, Defendants 'were
already in the business of (sic) “curtailing mails and altering process as necessary to honor the
Departments [own] commitment,” Id.R31a-R.32a [bracket mine]; And, since, this Administrative
statement has not been rescinded since, Appellant has no further need to trust those that illegally
deprive him liberty,.
As Appellant filed his cause of action as a P.CJLA. 15 days after Defendants issued their first
notice(s), these facts upon which his claim is pi edieaied were unknown 1 o' him until after Defendants
decided to issue such notices and as such, these facts could not have been ascertained by the exercise
of due diligence. Id.R.12a @ 6-B, 42 Pa.C.S.§ 9545(b)(i)(ii).
Appellants avers his presentation of a cause of action is one under the PCRA that is the sole means for
obtaining collateral relief and which Appellant is charged, convicted and incarcerated of a crime he
did not and could not have: committed; Serving an unlawful sentence, Id.§ 9542, ld.R.ia-48a. As he
must wait until the proper Court finds in his evidence, he continues to be harmed aiiff’injui cidi fd! r
•'27. '

In Appellants case, the seized mail looks as such:
DATE RECEIVED

PRESUMED REPORTED DATE

COLLECTIVE TIME OF POSSESSION

1/14/19

8/29/19= 227 DAYS

1 YEAR- 7 DAYS & COUNTING

1/17/19

8/29/19= 224 DAYS

1 YEAR- 5 DAYS & COUNTING

1/22

8/29/19= 220 DAYS

1 YEAR- & COUNTING

1/28

8/29/19= 214 DAYS

359 DAYS & COUNTING

2/11

8/29/19= 199 DAYS

344 DAYS & COUNTING

3/18

8/30/19= 165 DAYS

309 DAYS & COUNTING

4/01

8/30

=151 DAYS

295 DAYS & COUNTING

4/03

8/30

= 149 DAYS

293 DAYS & COUNTING

In addition, the seized correspondence as late in 2018 are as such:
DATE CONFISCATED

CONFISCATION NUMBER

TIME OF POSSESSION

9/14/18

B.727965

494 DAYS & COUNTING

9/18/18

B.727972

490 DAYS & COUNTING

9/27/18

B.727978

482 DAYS & COUNTING

In this present case, the trial court judge’s ruling was the product of manifest unreasonableness so
as to be clearly erroneous to constitute an abuse of discretion, Id. Grady at 1046. When wrongfully
setting aside Appellants statements in his inability to pay, expenses, debts ,income source and in like
regards, remove his PCRA outside the law where the Court did not claim it did not have jurisdiction,
only that it did not have the patience to deal with Appellants Constitutional deplorable issues which
he has subscribed to the protection of the Statute as herein, declaring under penalty of peijury the truth
of his averments, Id.R.13a, R.51a & R.72a. This Court should grant Appellants relief and hear this
matter, alternatively provide assistance of Counsel.
28

II. Portions of the trial courts assessment of 2016-2017, filings in State Court constitute prejudice
where facts are previously unknown and Appellant exercise due diligence as he disclose an unlawful
attack by Defendants on his civil action thorough a known 1925 Opinion that continued to cause
Prejudice to Appellant.
Under the time for filing petitions, section 9545(b)(1)(h) states in pertinent parts that “the facts
which the claim is predicated were unknown to petitioner and could not have been ascertain by the
exercise of due diligence [and] any petition invoking an exception provided in paragraph (1) shall
be filed within [60 days] one year of the date the claim could have been presented, Id. 42 Pa.C.S. §
9545(b)(ii) & (2), as amended, October 9 ,2018, SB no. 915
Additionally, in providing a newly discoverable fact, the Appellant must show that “the facts upon
which the claim is predicated were unknown to him an could not have been ascertained by the
exercise of due diligence, Cmwlth v. Blakenv. 193 A.3d 350, 361 (Pa.2018); If Appellant can
establish the two prongs, then the PCRA Court has jurisdiction over the claim, Id. (quotations
omitted).
(A.) INITIAL 2019- UNREASONABLE SEIZURE
Appellants correspondence, described above failed to reach him at all times said privileged mail
has been in the custody and control of the Defendants, Id.R.16a-R.30a. On or by August 29th and
September 10, of 2019, He’s told there is mail for him but has to be destroyed. These fact upon
which claim is predicated is unknown as the dates themselves are meant to escape actual notice (see
above @ Infra p.28), and could not have been in the possession of Defendants on August 29th or
September 10th, but rather for close to, and at times, beyond a year, Id.R.31a-R.48a. (constitution
evidence by government) See also: Id. R.12a @ (B)- (Defendants mailing notices to Appellant made
facts known), causing substantial prejudice.

29.

App. E-11

(i) SUBSEQUENT 2016-2017 ACTION
Conversely, when Judge Brabender Jr. denied an in forma pauperis, on April 13, 2016, Id.R.75a.,
by Appellant, he appealed that determination by filing a notice of appeal with the Superior Court.
Id.R.60a-R.61a. Although other applications were filed while he waited for the Courts judgment,
Id.R.61a, on July 14th, the Superior Court denied Appellants Ifp-motion without prejudice for him
to seek permission first with the trial court-Erie. The Superior court went on th State on Appellants
Ifp-motion that

.

“the trial court is DIRECTED to determine without regards to he merits of the
underlying action whether Appellate qualifies for in forma pauperis status for purposes
of proceeding on appeal. If Appellant does not qualify, the trial court shall enter an Order
denying Appellate in forma pauperis Status and shall attach thereto a statement explaining
the reasons for the denial.... Id.R.76a, R.61a (emphasis by the Court).

Appellant then obtained an Order from Judge Brabender Jr. on July 26,2016 that not only addressed
the merits of the Prerogative Writ’s petition, Id.R.77a-R.78a, yet, determined that “the appeal is
with-out merit and should be dismissed,” [and] further, gave the Commonwealth 20 days to file
responsive pleadings, Id.R.79a-R.80a. Three days later, the Superior Court entered an Order on July
29, 2016 demanding briefs by September

2016, Id.R.61a.

Here, the trial court judged did not make known that the Order(s) from Judge Brabender Jr. are,
with all due respect, deceiving, See: R.75a, R.77a-R.80a. None of the judge’s Orders state or have
any identifying feature to separate an “Order” from an “Opinion,” a material facts that is in the
present case not missing, See Id.R.57a with all other Orders, and this caused Appellant prejudice,
sufficient to violate his due process rights.

30.

E*

Here, each court submitted its determination that snarls and obstacles Appellant process to
effective State remedy as he was processing the last Order before the next one came in, Id.R.75aR.80a, And still, processing that Order before the next one, Id.R.81a, and by Defendants prejudicial
actions, Id.R.82a-R.85a., that in addition to Appellants statement of facts, Id.R.62a-R.66a, simply
put, Defendants made false and misleading statements when they had the actual evidence before
them and could not be dismissed their own government Statements as frivolous, Id. This caused a
Writ of Prohibition to the State Supreme Court of Pennsylvania, yet said court denied Appellants
case, Id. R.61a-R.67a, See also: Bartone, 375 US @ 54.
The trial courts entered (A) an Order that is an Opinion [R.77a-R.80a], and (B) an Order that
GRANTED Appellants Ifp-motion, to determine the writ is denied, and GRANTED Defendants
Motion to Dismiss, [ R.86a-R.92a]; Yet, these Orders are matters that the lower Court lost power to
decide in January 13, 2017, as Appellant was on appeal in December 28, 2016, [ R.67a ], as to the
United States Court of Appeals for the Third Circuit; And this would make the Orders/ Opinions
null, void and should be set aside, Commonwealth v. Spruill, 80 A.3d 453,462 (Pa. 2012).
Pa. Rule of Appellate Procedure 1701, generally holds that after an appeal a trial court may no
longer proceed further in the matter, Id. Commonwealth v. Cooper, 27 A.3d 994,1004 (Pa. 2011),
Rule 170 T then lists actions that a trial court is authorized to perform once appeal is taken, Id. If the
rule is triggered, it affects the trial courts power, if it is not triggered, it does not affect it, Id. @ 1005
(Rule 1701(b)(3) was never triggered and could not have affected the trial courts authorization to
rule on the motion); Yeager v. Long, 425 A.2d 426,427 (Pa.Super 1981)(lower court had no power
after appellant notice of appeal), Id. 428 (lower court Order granting Appellees motion to strike was
not among the limited actions authorized. The Order was therefore a nullity ....)

31.

I^pp. E. ^

Judge Brabender Jr. Orders caused Appellant prejudice as it released an Ifp-motion eight months
later, already denied by the Superior Court, Id.R.67a. It erroneously granted Defendants to file and
inconsistent with the Rules of Court; a Motion to Dismiss and thereby deprived Appellant the
security of this 1925(b) action and further denied his Prerogative Writ, Id.R.60a-R.67a; placing him
in a process that snarls and obstacles as it precluded an effective State remedy when the facts as
plead was fairly sufficient for the court to exercise extraordinary jurisdiction to grant Appellant relief,
Id. Bartone, Supra Infra., where these matters in the breakdown of the State process were facts that
were unknown until after the trial Courts Judge(s) Order and could not have been ascertained by the
exercise of due diligence.
Alternatively, as Appellants motion on January 22,2017, was in response to the Courts Order that
was not responded, the breakdown in the process continues to deprive him a fair forum, Id.R.67a,
and He qualifies for an equitable exception under the Continual Wrong Theory as the “asserted
occurrence falls within he limitation periods and the time of the discriminatory action,” as Judge
Brabender Jr.- (A) disobeyed the Superior Courts Order by determining the writs merits, (B) gave
defendants time to file what is not a 1925(b) Statement, (C) deprived appellant from filing a
statement of matters under 1925(b) and (D) deprived Appellant of a process causing substantial
prejudice. See, Havens Reality Coro v. Coleman, 455 US 363, 102 S.Ct 1114 (1984), And See,
Delaware State College v. Ricks. 449 US 250,257-58,101 S.Ct 498 (1980).
As the trial Court Judges Order on matters occurring in 2016-2017 are deprived a realistic
representation of facts as stated above, the Courts ruling is, with all due respect in error, constituting
an abuse of discretion and this Court may exercise the power to determine whether Appellant whom
is serving 23-Years of a 34-Year sentence for a non-criminal / non-cognizable offense, is imprisoned
for a crime that does not exist and falling outside the legal perimeters of any statute. Commonwealth
v. Mundey, 78 A.3d 661, 664 (Pa.Super 2013)(addressing categories of illegal sentences).
32.

hpp, e- in

III. Trial Courts exercised a manifestly unreasonable judgment, when notwithstanding any Defendants
or government statements to the contrary of the evidence place in the PCRA petition to the record,
Appellant is not imprisoned for any indictable offense in the Commonwealth of Pennsylvania, rather
incarcerated on Attempt 3rd Degree Murder, a non-criminal charge and ... related matters.
(A.) PREJUDICIAL ERRONEOUS INFORMATION
In this present case, the Government does not want to acknowledge the evidence Appellant has
and stand in defiance of him uncovering other evidence such that Defendants fabrications fooled the
District Judge Baxter (then US.DC.WD.PA. MDJ.) on August 3, 2017 when She issued an Opinion
adverse to Appellants case on the . grounds of Defendants information. This extrajudicial source,
caused Judge Baxter to rely on prejudicial erroneous information to deny Appellant his Writ of
Habeas Corpus, See Paine v. Baxter, 595 F.2d 197,201-02 (4th Cir. 1979).
The fabricated evidence by Defendants also indicated that there was no lawful restraint on
Appellant and this made any claims to the evidence as placed on the Writ that much more important
to view not Defendants dissemination of false, misleading and often times concealing statements
prejudice him, causing a Constitutional injury in depriving Appellate of a fair process, due to false
information, Id.R.6a, (quoting 1:17 Erie, at US.DC.WD.PA). See also: Pruett v. Levi, 622 F.2d 256,
258 (CA. 6th Cir 1980) and Paid; 424 US @ 712-14; Hence, in disclosing that “Mr. Sierra asserted
his incarceration is illegal because amongst other things Defendants do not possess a lawful Court
Order signed by the sentencing court authorizing any lawful restrain of him,” - this action violates
his Constitutional rights in the Sixth and Fourteenth Amendment, USC, and 28 USC § 2241(c)(3),
Id.R.6a, R.lla-R12a. This averment as supported by Defendant documenting his efforts conclude
with stating that there is “no sentencing and no commitment Order” Id.R.35a-R.56a.
Joseph v. Glunt, 96 A.3d 365, 367-68 (Pa.Super 2013)(OOR concluding that an affidavits from
DOC affirming the “nonexistence” of the sentencing Order was determinative”).
- 33.

Kpp. E. \5

Though Defendants have “various” copies ofAppellants trial transcripts as necessary records, it is
the prejudice in the discrepancy between trial transcripts and the Courts pronouncement of his charge
for sentence and imprisonment that stumbles when looking at one area of the evidence, Id. Glunt, 96
A.3d @ 368 & 372 (Appellant must argue discrepancy between sentence orally pronounced,
sentence actually imposed and/or trial transcripts); And, in Appellants case, although he does not
have a Sentencing or Commitment Order, his sentence of 34 -years to 64 years is illegal and
prejudice Appellant constituting a miscarriage of justice where He is serving a sentence without a
Statute. Commonwealth vs. Archer. 722 A.2d 203, 209 (Pa.Super 1998)(en banc)(a sentence is
illegal where a Statute bars the court from imposing that sentence).
The trial court when acting as a Sentencing court has great discretion and deference in sentencing,
yet this is not unfettered; appellate courts retain the power and the duty to vacate sentences imposed
where there is an abuse of discretion, Commonwealth v. Smithon. 631 A.2d 1053, 1055 (Pa.Super
1993). A sentence must exceed the statutory limits or be patently excessive, Commonwealth v.
Catanch. 581 A.2d 226 (Pa.Super 1990).
There is no Statute for “Attempt 3rd Degree Murder. Appellants logic is one of simplicity, if there
is no Statute for the alleged crime there is no sentencing him under this non-cognizable charge, to
do so would be to charge and sentence Appellant under an unconstitutional law prejudicing him and
contrary to Bond v. United States. 564 US 211, 226, 131 S.Ct 2355 (2011)(Per Curiam)(Justice
Ginsburg concurrence)(Appellate has a personal right not to be convicted under a constitutionally
invalid law). Trial Court Judge Kline, sentenced Appellant with his little brother to 20 to 40 years,
then after a moment where Lawyer Wynne alerted the Court Appellant Antonio Sierra was charge
in New York on a different offense, this alone was enough for Judge Kline to raise his sentence to
34 to 64 years, causing prejudice to Appellant and for all the same reasons addressed.
34.

Kpp, E. Ilo

In causing Appellant prejudice, trial Court Judge Kline entered a different verdict than that entered
by the Jurors in 1998 and did so in a 1925 Opinion (twice), setting aside Appellants conviction and
sentence all together and Appellant makes this argument as one seeing that since no Sentencing or
commitment Order exist in this case, he must rely on memory to challenge the conviction and
sentence, if the “conviction is the essential supporting infrastructure for a sentence, *** illegality
with respect to the former extends to the late as well. The alternative, is for the Courts to accept as
legal a sentence which is grounded upon an illegal conviction, Id. Spruill, 80 A.3d @ 464 (quoting
Fiore v. White. 531 US 225,228-29,121 S.Ct 712 (200l)(Per Curiam).
(i) TRIAL COURTS ACTION
September 11, 1998, trial transcripts “records” confirms that Appellant is incarcerated for
Attempt 3rd Degree murder, Id.R.40a. Nevertheless, trial court Judge Kline files a 1925 Opinion on
February 17, 1999, that stated: “Sierra was convicted o[f] criminal Attempt to commit criminal
Homicide[,F (herein “Attempt Homicide”), Id. R.45a. Then, and without providing Him notice or
chance to contest, the judge removes the Jurors verdict on Attempt 3rd Degree murder making it void,
Id.R.9a. This caused substantial prejudice to Appellant in his right to a fair trial and being properly
notified of the changes, See: Blakely v. Washington. 542 US 296, 308, 124 S.Ct 2531 (2004)(Sixth
Amendment held as limiting the Courts powers that infringes on the province of the jury’s powers).
Sometime within the 34-days from the trial court judge Kline’s February 1999 Opinion, He
signed the records in March 23,1999 and return Appellant back to Attempt 3rd Degree Murder charge
and not Attempt Homicide, and again, without notice or chance to challenge, Armstrong v. Manzo
380 US 548, 551-52, 65 S.Ct 1187 (1965). Trial court Judge Kline finally set the Jurors verdict
aside (presumably) in August 10,2000, and in another 1925 Opinion where he again held, without
notice or chance to contest that Appellant is convicted of Attempt Homicide, Id.R.9a; causing him
substantial prejudice, Id. Blakely. Armstrong. Supra Infra
35.

In causing Appellant prejudice, the trial court took liberties with Appellants case without his
knowledge, without notice and without the security of the Jurors and did strike the non-cognizable
charge Attempt 3rd Degree Murder and in turn the jury verdict on this charge. None of the outcomes
to trial Court judge Kline actions furthered Appellants interests or protected his fundamental due
process rights to be tried and convicted of a cognizable offense, rather, the trial court took action
beyond power conferred on it by law (its jurisdiction), and its actions is a nullity and objections
cannot be waived. Commonwealth v. Hall, 291 A. 626, 631 (Pa. 1928). This fundamental error
— requires a new trial or that the charge be held void and/or set aside, Supra Infra, Bond, Fiore, Blakely,
Armstrong, and Spruill. 80 A.3d @ 462.
Both trial court judge(s) Kline and Brabender Jr. issued a 1925 Opinion as shown on the record
and [ Id.R.45a, R.46a & R.57a.] yet there are no 1925 Opinions mentioned during Brabenders’
review of this case, [ Id.R.75a, R.77a-R.80a, R.86a-R.87a ], not until R.88a, that made July 26,2016,
Order a 1925 Opinion, Id.R.77a-R.80a., an act not known to Appellant and probably the
Commonwealth. In this case, the trial court- Erie judge’s ruling was the product of manifest
unreasonableness to be clearly erroneous as their reliance on Judge Brabenders duty to issue an
Order as opposed to an Opinion is negated on the record. In causing prejudice to Appellant, a “trial
courts 1925 Opinion is intended as an aid to the reviewing appellate courts and cannot alter a
previously entered verdict,” Commonwealth v. Lobiondo, 426 A.2d 662,665, n.4 (Pa. 1983)(quoting
Commonwealth v. Dunn, 385 A.2d 1299,1301 (Pa. 1978))( Holding, Courts are compelled to reject
such alterations to the original verdict made), See also: Id.R.7a., R.58a @ 3(c).
As the verdict itself is infirm, there was no need for the trial court-Erie Judges to bring forth matters
that occurred in 2016-2017 litigation as the court has the power to effectively undo and set aside an
unlawful conviction and sentence. The present Order on appeal deprives Appellant of due process
on its own and constitutes an error of law.
36.

fKpp, E . 1 8

(ii) COMMONWEALTH CONCESSION TO APPELLANT CLAIMS
Appellants one piece of evidence that opens this case is from Prosecutor Ditzler in June 2,2006, in
response to His Federal Writ of Habeas Corpus, where it was stated that: “Sierra as convicted of
Attempt 3rd Degree Murder argues correct, [and] the Commonwealth does not have a Statute for
what he has been convicted of,” Id. R.34a, R.63a. These statements caused prejudice to Appellant
as Ditzler was in direct conflict with First Assistant District Attorney -Prosecutor Gettle, and her
statements that: “there is no charge as third degree attempt murder,” Id.R.33a, R.63a. This as stated
4o the Superior Court on August 2,2004, [593 MDA 2004], was accompanied by stating “Appellant
should have preserved this claim in his first PCRA claim of ineffectiveness”. Id.
In Bond, the Court held “[a] conviction under an [unconstitutional] law is not merely erroneous,
but is illegal and void an cannot be a legal cause of imprisonment.... For this reason, a court has no
“prudential” license to decline to consider whether the Statute under which the defendant has been
charged lacks constitutional application to h[im], 564 US @ 227, (Justice GINSBURG
concur)(quoting Ex Parte Siebold, 100 US 371,376,25 L.Ed 717 (1879)). In Siebold. The Supreme
Court disagreed with Appellant that Congress could not have enacted the laws at issue, but in
discussing ils jurisdiction asserted,: “the validity of the judgment is assailed on the grounds that the
acts of Congress under which the indictment were found are unconstitutional. If this position is well
taken, it affects the foundation of the whole proceedings. An unconstitutional law is void, and is as
no law. An offence created by it is not a crime. A conviction under it is not merely erroneous but is
illegal and void., Siebold, 100 US @ 376.
Appellant asserts that his Federal due process rights are violated because he was found guilty under
an unconstitutional law, many government officials and officers known or have reasonable
knowledge of this injustice for over 16 years to date, refuse to do anything about and because in a
prejudicial deprivation, He learns for the first time Attempt 3rd Degree murder does not have a Statute.
37.

E. l°\

As Appellant could not challenge Defendants interpretation of facts as they were based on events
that had not yet occurred, and the District court for the Middle District denied His erroneous Writ of
Habeas Corpus pursuant to 28 USC § 2254, although the claim was not ripe at the time the first writ
was adjudicated, Panetti v. Quarterman. 551 US 930,944,127 S.Ct 2842 (2007), Id.R.64a; It is these
statements from the Commonwealth as the Prosecutors that render all actions by Defendants to date
as Unconstitutional, prejudicial to Appellant and void. Id. R.61a-R.63a, R.8a-R9a.
-When with-their statementsrall-ef Defendants-acts-are brought into question as to the fairness
of Appellants process from trial to an alleged sentence to being placed under a commitment and
incarceration, the overall effect is to deprive Appellant of Due Process in every court of justice he
applies for relief. His claims stand without a process as the evidence brought together with no
Sentencing and no Commitment Orders exist Id. R.35a-R.36a & R.64a, makes the Prosecutors
statements much greater not to be subject to contest as a matter of law; “a warrant of commitment
departing in matter of substance from the judgment back of it is void, Hill v. US.Ex Rel Wampler.
298 US 460, 465, 56 S.Ct 760 (1936); A “verdict without a judgment in a case like this is of no
validity®1'1, Smith v. McCool. 83 US 560, 561,21 L.Ed 324 (1873); Id.R.59a.

1: During the 2016-2017 litigation the court and Defendants had rejected Appellants claim on his
exact evidence to (sic) “accept the immediate and unconditional surrender....currently ensconced in
this Courts jurisdiction, to be brought before the judge to answer questions, present evidence and to
the effects herein....” See Prerogative Writ on March 16,2016. at CCP-Erie, Dkt No. 10808-2016,
pg. 17-18. Here, at the time of the petition “[t]he commitment was neither better nor worse because
of the ruling of the judge that he would let it stand as written. If void, it was still void, if valid, it had
received no accession of validity. Id. Wampler. 298 US @ 467. The writ of habeas corpus searches
the record back of the commitment. It lays a duty on the Court to explore the foundation and
pronounce them true or false,” Id.
38.

App* t .

Defendant Ditzler also made statements that were misleading, like that Appellant created the
charge to avoid a harsher punishment; Id.R.8a, R.34a, R.63a. In addition, Defendants at all times to
litigation the facts to this petition have stated that Appellant is (1) incarcerated on Attempt Homicide,
(2) he was attempting to limit liability by keeping the charge as a “lower” grade, (3) there is no
known law which would provide Appellant any relief or support the complaint He brings on the
information brought by the Commonwealth and (4) that this cause of action should be dismissed as
utterly without merit, Id.R.65a-R.66a, R.62a.
As appellant is prejudiced by the fact he did not obtain proper notice to begin process, the facts that
he is deprived the free flow of information and due process after the fact does not divest the court of
the main point at issue, Armstrong, Bond, Siebold. Supra Infra., the main point to his crying now is
that whatever the issue with his evidence, whether right or wrong, “the articles should have stood or
fallen under the only title it could honestly have been given,”Hazel Atlas Glass Co. v. Hartford Co.. 322 US 238,242,64 S.Ct 997 (1944).

(a) APPELLANTS ALLEGED CHARGE
The trial transcripts disclose that Lawyer Kelsey was attempting to reasons from th crime codes
and sentencing guidelines on whether there wa a charge as Criminal Attempt to Commit Criminal
Homicide, [ herein “Attempt Homicide,”], Kelsey said: “There is no such crime,” yet, he wanted to
placed something on the record. Id.R.38a-R.39a. The Prosecutors took issue with this assessment
and began to oppose the conversations and rulings between Kelsey and trial court Judge Kline, in
their induced government plea agreement, Id.R.39a-R.40a. In their objection, Prosecutor Arnold
/Charles stated that all they were asking “as in a regular homicide case, you charge general homicide,
and then you select the grade as you go later. Same thing with an Attempt Homicide, we are asking
for an instruction to the Jury on Attempt third Degree murder, and that is it,” Id.R.40a.

39.

Kelsey, satisfied that Prosecutors sought charge, moved to amend on “your information to call
for Attempt 3rd Degree Murder as the charge instead of Attempt Homicide,” Id.R.40a.-R.41a. Judge
Kline satisfied Kelsey, Arnold and Charles had an agreement convinced Lawyer Wynne to concede
on the information so that he could say “Criminal Attempt to Commit Criminal Homicide, 3rd Degree
Murder;” and Wynne conceded. Kelsey moved to physically remove Attempt Homicide from all the
information to call for Attempt 3rd Degree Murder, Id.R.40a-R.4ia, R.63a, R.8a.
Appellant is prejudice as trial court judge(s) [and Kline] are not impartial to Him or his plight
on this plea agreement and all processes after. The trial courts honesty is seriously questioned when
(1) attempting to read an information for a charge not recognized in Pennsylvania, fot (2) claiming
Appellant was looked for this charge /to lower its degree, and after trial, (3) covering up the charge,
Id. R.44a-R.47a., It is fundamentally erroneous and bias or bias per se, as it was Prosecutors that
sought Attempt 3rd Degree Murder, IdR.40a., Appellant had no say in this process. Withrow v.
Larkin. 412 US 35,47,95 S.Ct 1456 (1975).

(b) THE NO LONGER COVERED CHARGE
In this case, the trial court judge(s) [including Mr. Kline] has never stated Appellant convicted of
Attempt 3rd Degree Murder rather, Attempt Homicide, knowing or with sufficient reasonable
knowledge what his incarceration is and rather that clear the record, they remove “third degree” from
between “Attempt Homicide” and proceed with denying Appellant relief. This is unconstitutional,
erroneous, and prejudice Appellant. In Kulik, a new trial was grated because the trial judge inserted
the word “not” between the words “do” and “have” in one part of the charge, Id. 216 A.2d 73, 74
(Pa. 1965). In Young, 317 A.2d 258 (Pa. 1974), the trial judge did not merely insert a single word.,
but rather, sought in his opinion to add an entirely new dimension to his charge on reasonable doubt,
Id. @ 265. The Young court held that this case presented manifold prejudice and reversed the trial
court granting a new trial. Id.
40.

Ps^>> E.

Although Appellant respectfully reminds the Court that this appeal is due to the trial court Judges
various erroneous denial of his Ifp-motion, these actions as a whole deprive him a right to a
disinterested adjudicator. The presumption of honesty and integrity is shattered by the unfair process
Appellate has to undergo to litigate and obtain relief and in this, the “judicial misconduct
distinguished from “personal interests” resulted in an impermissible judicial bias that deprived
Appellant of a fair trial,” Allen v. Hawley. 74 Fed. Apx. 457, 459-60 (6th Cir. 2003)(concept of
judicial bias addressed).
(c) INTENT vs. MALICE
In Appellants trial on September 11,1999, trial court Judge Kline instructed the Jurors that they
could find Mr. Sierra guilty of Attempt 3rd Degree Murder if the commonwealth proves that first,
Jose Ortiz, Anthony Miles and David Baker are dead if the third degree murder had occurred.
Second, that the Defendants killed them. And third, that the Defendants did so with malice &'2. The
trial court then explained malice as:
[t]he word malice as I am using it, has a special legal meaning. It does not mean simply
hatred, spite or ill will, malice is a shorthanded way of referring to three different mental
states that the law regards as being bad enough to make killing murder. Thus, a killing
was malice if the killer acted with: First, an intent to kill, or second, an intent to inflict
serious bodily harm, or third, a wickedness of disposition, hardness of heart,
cruelty, recklessness of consequence, and a mind regardless of social duty,
indicating an unjustified disregard for the probability of death or great bodily harm,
an extreme indifference to the value of human life, a conscious disregard or an unjustified
and extremely high risk that his actions might cause death or serious bodily harm®1’3 .

2: Tr. 753
3: Tr. 754
41.

App- H*

The trial court therefore instructed the Jurors that they could find Appellant guilty of Attempt 3rd
Degree Murder if the Commonwealth proved that He committed the offense of attempt murder.
Pennsylvania law does not recognize the offense of attempt 3rd degree murder, Id. R.10a (quoting
Federal and State Law holding there is no such charge as Attempt 3rd Degree Murder).
Malice is the essential element of murder and is the difference between murder and
manslaughter, Commonwealth v. Cruz-Centeno. 668 A.2d 538, 539 (Pa.Super. 1995). First degree
murder is recognized by the characteristic that it’s a specific intent crime, Commonwealth v.
Blackeny, 946 A.2d 645, 652 (Pa. 2008), but not third degree murder. And, yes, it requires an
intentional act, but not an act defined by Statute as an intentional murder.
[E]vidence of intent to kill simply is irrelevant to third degree murder.
The element of third degree murder absolutely includes an intentional act,
but not an act defined by the Statute as intentional murder. The act
sufficient for third degree is still a purposeful one, committed with malice,
which results in death [.]
Commonwealth v. Fisher. 80 A.3d 1186,1191 (Pa. 2013)(emphasis added).
Attempt third degree murder is therefore not a cognizable offence under Pennsylvania law.
Commonwealth v. Weimer. 977 A.2d 1103, 1112, (Pa. 2009). Moreover, “attempt” is a specific
intent crime, cf. 18 Pa.C.S. § 901 (a “person commits an attempt when with intent to commit a
specific crime he does any act which constitutes a substantial step towards the commission of that
crime.”). The only degree or murder seemingly worth of belief under title 18 Pa.C.S. § 901, is
attempt first degree murder because first degree murder is a specific intent crime. Despite this clearly
established law, trial Court judge Kline gave the jurors a defective murder instruction, Id R.65a,
R.10a-R.12a.
42.

Npp, E. cS-V

In this, by allowing the jurors to base its third degree attempt murder verdict on specific intent
and malice (in the absence of specific intent), the trial court made it far more easier for the
Commonwealth to obtain a murder conviction and substantially increase the likelihood the jury
would and did convict Appellant on a non-cognizable charge. Neither outcome further Appellants
interests or protects his fundamental due process rights to be tried and convicted of a cognizable
offense if so charged.
Trial Court have broad discretion in phrasing and wording jury instructions, and a duty to convey
the law “clearly, adequately and accurately[.]” Commonwealth v. Hawkins. 701 A.2d 429, 511 (Pa.
1997). A proper jury instruction is fundamental to our adversarial system of criminal justice,
Commonwealth v. Saunders. 602 A.2d 816, 818 (Pa. 1992). If the trial court inaccurately explains
the law, particularly the elements of a charging offense, the misstatement of law constitutes
reversible error if the misstatement constitutes a fundamental error or the record is insufficient to
determine whether the error affected the verdict. Tincher v. Omega Flex. 104 A.3d 328, 351 (Pa.
2014).

In this case sub judice, the trial courts have prejudice Appellant as (1) the defective jury
instruction represents a fundamental error of law and (2) Prosecutors Ditzler and Gettle have
determined that the Commonwealth does not have a Statute for Attempt 3rd Degree Murder. This
instruction affects the jurors verdict to find Appellant committed a non-cognizable / non-criminal
charge under a law that is unconstitutional, Siebold, Bond, Supra Infra.,. If nothing else, the power
of the court became "functus officio” before the new act was performed and jurisdiction had
absolutely ceased, Hall v. Ames. 182 F. 1008, 1013 (1st Cir. 1910)(quoting (inter alia) Williamson
v. Berrv. 49 U.S. 495, 540-41, 12 L.Ed 1170 (1850)), HaU, 291 A. @ 628; Id. R.10a„ This
fundamental error requires a new trial or as Appellant request relief -to vacate and set aside the
unconstitutional charge, Id.R.23a-R.14a.
43.

/\$pp, E. ^5

An error is fundamental if it” deprives a defendant that fundamental fairness essential to the very
concept of justice, and denies him due process of law guaranteed by the Fourteenth Amendment,
Commonwealth v. Williams. 248 A.2d 301, 304 (Pa.Super 1968); Armstrong. Supra. Infra.
The trial courts Attempt 3rd Degree Murder instruction constitutes a fundamental error of law
causing prejudice to Appellant. It is fundamental due process that the Commonwealth cannot charge
a person with a non-cognizable, non-criminal charge and jurors cannot be oppressed with the great
labor of determining whether Appellant committed this charge, Bond. Siebold. Blakely. Supra. Infra.,
As the United States Supreme Court states in [a discrimination case of licensing over cotton gin] at
Frost v. Corporation Commission, 278 US 515, 527, 73 L.Ed 483 (1929) :
“We suppose it clear, that no law can be changed or repealed by a subsequent act which is void
because unconstitutional . ..An act which violated the Constitution has no power and can,
of course, neither build up nor tear down. It can neither create new rights nor destroy existing
ones. It is an empty legislative declaration without force or vitality, (citing cases).
When trial court Judge Kline committed himself to charging Attempt 3rd Degree Murder, and
then giving the jurors an instruction on this charge, Judge Kline rendered the entire trial unfair by
setting the jurors to fail in their Constitutional duty after Appellant found and the Commonwealth
declared there is “no Statute for Attempt 3rd Degree Murder.” This is what occurred when (1) the
information was changed from Attempt Homicide to Attempt 3rd Degree murder, and (2) trial court
defective instruction (a) permitted Jurors to consider whether Mr. Sierra committed a non-cognizable
charge and (b) the real possibility that jury convicted Appellant for a non-cognizable/ non-criminal
charge, although these matters are “void because unconstitutional,” Id. Frost, Siebold, Bond, Supra

Infra.,.
44.

Likewise, the record is insufficient to determine whether the trial court judge demonstrated actual
bias, an appearance of partiality or judicial bias. Trial Court Judge Kline made a fundamental error
and unfair considering the facts of this case, but the issue is not with Judge Kline, rather, on the
Prosecutors and Lawyers at the time convinced him to select Attempt 3rd Degree Murder, when it
was already established law there is no such crime. Griffin. Williams. Supra Infra.,
This is why when taking into account Judge Klines’ action in vacating the charge twice without
giving notice or chance to contest, a fact that he became aware of during the 2016-2019 term of
litigation, Id.R. 7 a., there is simply little to no record of “why,” exactly “what” occurred, who(m)
were the parties (at the time it was decided) and that brought Appellant to question the
Administration of Justice (i.e., changing the charge, choosing to keep it from me, placing false and
misleading statements on records and giving it to other courts, inducing them to find against me,
withholding the free flow of information and due process at all times I attempted to litigate in good
faith and hard pressed deprivation).
Put differently, the record is insufficient to determine whether [and who, how many times, when,
where, why] Defendants got together (and if at all conspired to the detriment of Appellants case), to
challenge Appellants claims whether with false, misleading and concealed information, statements
and/or evidence, Id.R.la-R.14a., R.60a.-R.67a. In these situations, the fundamental error of that
deprives Appellant a fair trial, extending to his appeal and requires reversal., Id. Armstrong. 380 US
@ 552 (fundamental is the opportunity to be heard in a meaningful time and manner); Youne. 317
A.2d @ 264 (Appellate review has become such an integral part of the criminal procedure that it
may be properly viewed as an extension of the trial itself)(quotations omitted). It is these
fundamental errors that requires a new trial or as Appellant request relief-to vacate and set aside the
unconstitutional charge—Attempt 3rd Degree Murder.
45.

/\ppT H- c3>~1

App. F,1—7

DC-xRB
Rev. 4/-20x2

COURT .OF COMMON PLEAS OF ERIE COUNT^' ‘f k'~
■ '

chit. i"7\

PENNSYLVANIA

20!9 OCT -3 AM 8: 23

MR- ANTONIO SIERRA, Ph-D-, Pro Ss

ClKnK of RECORDS
r Ku i HuHu IAK.Y

• PLAINTIFF
VS- ‘
MR. JACK DANERI, D-A*/ MICHAEL' CLARK- WARDEN/ TAMMY WHITS -MAIL ROOM SUPERVISOR/
SAMUEL KLxNE- JUDGE/ JOSH SHAPIRO-^ A*G° / COMMONWEALTH OF PENNSYLVANIA, Et AI,
■

.

•

\

.

:

DEFEtOANTS

MOTION FOR POST CONVICTION COLLATERAL RELIEF

^ LIST BELOW THOSE INFORMATION OF INDICTMENTS & OFFENSES FOR WHICH YOU
HAVE NOT COMPLETED YOUR SENTENCE
INFORMATION. OR INDICTMENT NUMBERS.
ACTION NO. 10806-2016 -C‘C*P" ERIE COUNTY
ACTION NO- 2013-02357 -C'->C*P* LEBANON COUNTY
ACTION NO- 98-11239

-C-C*P“ LEBANON COUNTY

It- I WAS CHARGED OF THE FOLLOWING CRIMINAL ATTEMPT TO COMMIT CRIMINAL HOMICIDE THIRD DEGREE MURDER
[OR] ATTEMPT 3-RD DEGREE MURDER/ See. Exhibit-C (C-x-2) inter alia.

/S/-,
/P/- ANTONI

/ Ph-D-, PRO-SE
TERRA, ID-#. DV-0636

SCI-ALBION-X075 STATE ROUTE 13
ALBION PA 16475 Ap»’ vj

H. ig

C0!->u
a t
L MY NAME IS: Antonio Sierra, Ph.D., Pro-Se
~ Srri

~fW.

Or ^gjjsj Vuvk.. E^Otslx. Nj.y.

}Q4(gQ

°um

^19 OCT ~3
_________
Mi Q: 23

2.1 am Now: (c) confined in SCI ALBION ] (d) Residing at 10745 State Route 18,

,^ r< r;

3.1 WAS not SENTENCED to a total term of imprisonment by the trial judge - Samuel A. Kline, J., of the
Court of Common Pleas of Lebanon, Pa.
Following A: Trial by Jury
4.1 AM ELIGIBLE FOR RELIEF BECAUSE OF:
I. A violation of the Cpjj^to^opOTj^^jjf^^mted^Stafes which, in the circumstances of the particular
case so undermined the truth-determining process that no reliable adjudication of guilt or innocence
could have taken place
•
5. r AM ELIGIBLE FOR RELIEF BECAUSE, ALTHOUGH THIS PCRA PETITION IS BEING FILED
. MORE THAN ONE YEAR AFTER THE ALLEGED DATE OF FINAL JUDGMENT, I HEREBY
ALLEGE AND CAN PROVE THAT THE FOLLOWING EXCEPTION HAS BEEN MET :
(i). My failure to raise this claim previously was the result of interference by government officials with
die presentation of the claims in violation of the Constitution and laws of the United States. I intend to
prove my claim was late due to governmental interference by showing:
1. The government, by way of the Department of Corrections -SCI. Albion unlawfully seized incoming
privileged correspondence with no probable cause and where Plaintiff represents an illegal charge is
detaining him without due process of law, impeding the due course of justice. See Commonwealth vs.
Cox, 204 A.3d 371, 391 (Pa. .2018), Commonwealth v. Albrecht 994 A.2d 1091,1095 (Pa. 2010).
2. Without probable cause or any justification whatever, SCI-Albion Defendants Mr. Michael CLARK.• WARDEN and Ms. Tammy TURNER. (Mail Room Supervisor) and others not presently known by
plaintiff, intentionally agreed to, and did introduce false, misleading and concealing statements and
' information about:
A. plaintiff informed how department is .to, dispose of original privileged mail and
B. . failing to admit to evidence plaintiff has provided on the. illegal charging offense and illegal sentence
2

faf ? fa

91.-23

3. As a result of defendants intentional and malicious confiscation of plaintiff mails, He is
A. deprived without cause from accessing correspondence address to him
B. deprived; on or about eight to nine month and/or. up to defendants Notice regarding disposition of
incoming correspondence as verified received September 10,2019
C. detained without probable cause on fabricated evidence where it is more likely than not, the false
information provided on plaintiff incarceration- for Attempt third Degree Murder is used to deprive
liberty without due process of law. As it was but for cause of the alleged deprivation that produced
false and misleading information, and often times concealed statements to the same effects; plaintiffs
incarceration on the non-criminal-charge Attempt 3rd Degree Murder is unconstitutional, wrongful and
defendants committed fraud and upon the Court.
4. Defendants Clark, White and/or others unknown to plaintiff had knowledge or had they diligently
exercised their duties, should have knowledge plaintiff evidence fairly establish the truth determining
process was so undermined that no reliable adjudication of guilt or innocence could have taken place
5. By means of these wholly unfounded Seizures, defendants Clark and White directly cause plaintiff
personal and legal injury. Said defendants refused and/or ignored to complete the release form of
Correspondence when duly requested to do so by plaintiff, and thereby defendants actions and conduct
is in violation of the First and Fourteenth Amendment to the Constitution of the United States in several
respects, including taking action to' deprive plaintiff of possession, use and enjoyment of his mails for
about tire time so stated herein (above).
6l Defendant Clark, White and/or- others not presently known to plaintiff, cause .this evidence by Notice
to appear, yet without the actual privileged correspondence. The notice, goes on to provide two options
for selection on tire disposition of correspondence and thereby means to trick plaintiff in giving up his
rights intentionally.
7. By means of confiscation, false and misleading statements and unlawful detention, Defendants Clark
and White intentionally or with deliberate indifference and callous disregard of plaintiff rights deprive
plaintiff of. his right to be free of unreasonable seizure in violation to the Fourth and Fourteenth
Amendment to the Constitution of the United States and 28 USC § 2241(c)(3).
.

'

3

fitf r.T-'i

R..3S

8. Defendant Clark, White and such other(s) [herein “Officers or Officials” for convenience], acting both
individually and in concert, refused to initially send the none articles of correspondence of legal
character back to plaintiff, and as a direct and proximate cause of such refusal and/or ignorance, none
of said letters was ever received by the addressee and plaintiff, Antonio Sierra.
9. Defendant Clark, White and/or Officers or Officials acting both individually and jointly, failed to mail
a considerable amount of correspondence which war properly submitted to them for mailing during the
period of this incarceration at SCI- Albion where various pieces of mail dealt with legal and personal
matters and none threatened, contemplated or included plans for any criminal activity, threated or posed
any clear and present anger of physical harm of violence to any person; none were obscene or written
in any form of code. Said mail as un-received and held captive by Defendants as dated August 29th and
issued September 10, 2019 includes but is not limited to the following:
A. Correspondence/Response by Commonwealth Court of Pa. of 14 JAN. 2019
B. Correspondence/Response by ACLU of 17 JAN. 2019

.

C. Correspondence/Response by Supreme Court of PA, {CLERK}.of 22 JAN. 2019

<

D. Correspondence/ Response by Supreme Court of Pa, of 28 JAN. 2019
E. Correspondence/ Response by U.S. Court of Appeals 3rd Cir. of 11 FEB. 2019.
F. Correspondence/ Response by Commonwealth Court of Pa. of 18 MAR. 2019
G. Correspondence/ Response by ACLU -Eastern Region, of 1 APR. 2019

-

; H. Correspondence/Response by U.S. Supreme Court, of 3 APR. 2019
10. Correspondence above [i.e. 5.9], failed to reach plaintiff, and as a proximate result of interference by
Defendants Clark, White, Officers and/or Officials acting both individually arid on a concerted action,
each said Defendant acquiesced, condoned, encouraged and assisted the actions of the others in a
deliberate effort to single out Plaintiff for harsh, arbitrary and discriminatory treatment with regards to
correspondence, in knowing disregard of applicable prison mail regulations in effect as set forth in title
37 P.S. 93.2. Said corresponderice was in fact- permitted by mail regulation despite Central Office
officers affirming “curtailing] mail... [with] “many process being reviewed or altered as necessary...”
This submitted on December 7,2018, received January 9,2019 and again as submitted March 13,2019.
4

F-H.

-r =.

11. Defendant did both, individually and in pursuance of a common plan or design deliberately single out
Plaintiff for harsh, arbitrary and discriminatory treatment with regard to his correspondence andincarceration, in knowing disregard to the fact that plaintiffs constitutional rights were thereby violated.
12. The malicious seizure placed against plaintiff by the Defendants Clark, White, Officers and/or
Officials, and further, the tortious acts in producing false and misleading information to deprive civil
rights in free speech, due process and due course ofjustice is as a proximate result prejudice to Plaintiff
and deprived his liberty and property in violation to tire First, Fourth and Fourteenth. Amendment to the
Constitution of the United States and 28 USC § 2241(c)(3).

(ii) Tire facts upon which the claim is predicated were unknown to the Plaintiff and could not have been
ascertained by the exercise of due diligence. The following facts were previously unknown to me:
1. All the correspondence described above that failed to reach plaintiff and dated August 29, 2019 is
verified served September 10, 2019, on plaintiff. A copy of said mail appears as Exhibit A (A.1-A.8)
2. Defendants herein named have further seized plaintiff privileged correspondence, affirmed such seizure
and in continual wrong include prejudicing plaintiff mailings by:
A. U.S. Court of Appeals, 3rd Circuit, for September 14, 2018- confiscation No. B.727296
B.

U.S. Supreme Court for September 18,2018- confiscation No. B.727972

C.

Supreme Court of Pa., for September 27,2018- confiscation No. B.727978

D- PaJDoc. Central Office affirm, December 7, 2018, rec’d 1/9/29 at #. 760951
E. Pa.Doc. Central Office affirm, March 13, 2019, at #. 759674
F. Actions as found in Grievance —no confiscation given. As these mails are seized by named defendants,
a copy of said mail appears as Exhibit B. (B. 1- B.5)
3. Other articles of evidence showing plaintiff intentionally kept from knowing about illegal incarceration,
it effects on the 1998-Jury and possible fraud and upon the Court by named Defendants is provided as:
A.

Augusts, 2004 -concessionby Government Prosecutor, Exhibit C.l

B.

June 2, 2006 -concession by Government Prosecutor, Exhibit C.2
5

^>p- F-S

ft 5 a

r

a,

C. September 16, 2013 —concession by Government Lawyer —Pa.Doc, RTKL, Exhibit C.3
D. October 1, 2013 -concession by Government Records, Pa.DOC, -Albion

Exhibit C.4

E. September 11, 1998 Trial Transcripts -CCP-Lebanon

Exhibit C.5 -C.11

F. February i7,1999 -concession by Government Trial Judge,

Exhibit C.12-C.13

G. August 10,2000 -concession by Government Trial Judge,

Exhibit C. 14-C. 15

4. These other articles of evidence as intentionally withheld by the Defendants herein named caused
plaintiff prejudice while the factual predicate has not yet matured to make claims ripe for review.
5. As'adirect-and-proximate result of Defendants actions^ plaintifif have beenharmed and injured. Plaintiff
have.failed to represent the truth about plaintiff incarceration and at time conceal the truth all together,
depriving plaintiff of his Constitutional and statutory rights, where the U.S. District Magistrate Judge,
( now District Judge ) statements of August 3, 2017, relied on false and misleading statements by
Defendants to a Constitutional degree of prejudice.

(iii) The right asserted is a Constitutional right that was recognized by the United States Supreme Court
after the time period provided in this section and have been held by that court to apply retroactively:
1. In Fiore vs. White, the Court asked “[wjhether Pennsylvania can, consistently with the Federal Due
Process clause, convict for conduct that its criminal statute, as properly interpreted does not prohibit.”
531 US 225, 228, 121 Set. 712 (2001)(per curium). The Court held that Fiore’ conviction failed to
satisfy the Federal Constitutions demands, Id. 229.
2. In Montgomery vs. Louisiana. 136 Set. 718, 193 L.Ed.2d 599 (2018), the Court held that when a new
substantive rule of Constitutional law controls the outcome of the case, the constitution requires State
collateral review courts to give retroactive effect to that rule. Id. at 729. See also: Teague vs. Lane, 489
US at 301 ([A] cause announces a new rule if the results was not dictated by current precedent existing
at the time and defendants conviction became final, (emphasis in original).

6

R Ga

< •=

3. As Fiore retroactive issue need not awaits a case law to decide its retroactivity, State law must
retroactively apply this new criminal rule to State law, Guzman v. Greene. 425 F.Supp.2d 298, 317
(2nd. Cir. 2006)(SDJ. BLOCK); And as Montgomery declared its decision retroactive, the case in itself
is not ill fitted for application to the present case at bar, See: Commonwealth vs. Abdul-Salaam, 812
A.2d 497, 501 (Pa. 2002).

6. THE FACTS IN SUPPORT OF THE ALLEGE ERROR(S) UPON WHICH THIS MOTION IS
BASED ARE AS FOLLOWS: [Please excuse cases cited, it could not, with all due respect be helped].
----- A). Iknowthe following-facts-to be true o£my own person acknowledge:

___________

_

_

I. Prosecutor Gettle should have not been allowed to concede there is no charge as Attempt 3rd Degree
Murder, and then take issue with Counsels effectiveness for various reasons:
A. First, die Sixth Amendment is held as limiting court powers that “infringe on the province of the jury
powers.” Blakely v. Washington, 542 US 296, 308, 124 Set 2531 (2004).It follows that no judge can
impose punishment were the jury verdict alone does not allow or have not found all the facts which the
law makes essential to the punishment. Id. 304. In tiiis present case, the evidence show the trial Judge
vacated Attempt 3rd Degree Murder twice, rendering it void and without notice or chance in plaintiff to
contest. Here, die State procedure did not comply with the Sixth Amendment and such procedure is
rendered invalid as a matter of law. Id. at 305.
B. It is well established law the legislature and not the courts are whom define a crime and ordain
punishment. U.S. v. Wiltoerger. 18 U.S. 76,95,5 L.Ed 37 (1820). Here, where the trial court attempts
to enter a different verdict than that entered by a jury, the Courts are compelled to reject such alterations
to the original verdict made, Commonwealth v. Dunn. 385 A.2d 1299,1301 (Pa. 1975), Commonwealth
v. Reading. 603 A.2d 197, 201 (Pa.Super 1991)(citingDunn). See, Frost v. Corporation Commission,
278 US 515, 522, 73 Set 485 (1929)(“Immunity to one from a burden imposed upon another is a form
of classification and necessarily results in inequity .., unreasonable and arbitrary

7

App. G.l—30

-f
■

'

I

i

V

1

hv
IH THE COURT OF COMMON PLEAS OF LEBANON COUNTY,
PENNSYLVANIA
CRIMINAL
COMMONWEALTH OF PENNSYLVANIA: Action No. 97-11239
No. 97-11240
*
No. 97-11241
:
v.
:
j'.i

=a

*******

DAVID SIERRA
SAMUEL SIERRA, JR.

i

: JURY TRIAL

TRANSCRIPT OF PROCEEDINGS
-V

September 8 - 11, 1998

>
* .t

COURTROOM NO. 3
BEFORE
HON. SAMUEL A. KLINE,
JUDGE

1

VOLUME IV

■ ■

'

;-'f/

APPEARANCES:
:
BRADFORD H. CHARLES, ESQUIRE
and
DAVID ARNOLD, ESQUIRE
For - Commonwealth

7i';

;

THOMAS K. WYNNE, ESQUIRE
For - Antonio Sierra

d’-'

JOHN R. KELSEY, III, ESQUIRE
For - David Sierra

■J

7

CHARLES T. JONES, JR • r ESQUIRE
For - Samuel Sierra, Jr.
REPORTED BY:
MARY ANN ALLWEIN,
OFFICIAL COURT REPORTER

v>

t

PUM- cP

Ref: $74777 pg 27 Of 129 for ANTONIO SIERRA.

Aop
f r- & i.

Z.'Zla

fr

" waaais oxnojjw ioj szt jo z6 fia tLLtLe :jaa

705
1

TRIAL COHTINPED
Friday I!
September 11, 1998

2
3

(The following discussion
occurred in chamberss)

:.i

i

HR. KELSEY:

5

;

I haven't put too much effort

t;

into thisv but I did look and notice that I couldn't
___

^flhd^Ehythiaasffs^i^^^iifedsh^as^nentenoin^s&guidel'ines of

8

charging or anything about Criminal Attempt to Commit

9

Criminal Homicide.

10
11

There is no such crime.

Everything I saw was Criminal Attempt to

Commit First Degree Murder, Criminal Attempt to Commit
x

12
13

■

■

and Voluntary Manslaughter,

and so on

Involuntary Manslaughter.
There is no such thing as Criminal Attempt to

14

however, Criminal Homicide includes all of
i
those, including Voluntary — Involuntary

15

Commit

17

Manslaughter.
I am concerned that there is no ;such crime as

18
19

Criminal Attempt to Commit Criminal Homicide.

20

that you charge Criminal Homicide for a killing, and

21

then determine what the grade is later.

:

'

'V'.:

■

. ■

••••

I know

:

.

•

i

'■>

But I don't
!

22

but in this THE COURT:

23
24

S'

And they are not being required

.. .

to grade the offense MR. KELSEY:

25

In the sentencing guidelines
OfchfelT C.Cp

■

I
Affbz

'

■

&a|

Vmrais oiNOitw joj szz jo oot 6d lll$lb ' jsh

706
■?

1

I

••

there is a —

sentencing guidelines provide for
■

■*

.

2

gradation, depending upon whether it is a Criminal

3

Attempt to Commit First Degree Murder, Second Degree

4

Murder, Third Degree Murder or Voluntary ^lanslaughter.

5

Each of those has a different sentencing guideline

6

amount and is a separate criminal offensej.

*$4

■

/

I'
!

7

f

s

8

question then, if the District Attorney is requesting

9

third degree, I will rule as a matter of law now that

10

It could be no higher than third degree*

11

address your Issue?

12
-

jSOURTj. I'ilW© i.i?

13

MR. KELSEY:

1

Does that

Well, I don't know if it does or

doesn't, because 1 have not had more thaii a few minutes
!

to think about it.
15
b

Wm
4:

THE COURTS

I understand.

The only other
!

16

thing that I could do would be to read Voluntary and

17

Involuntary.

18

i-.'

19
20
21
22
23

■ ■ m

MR. CHARLES:

1 am not asking that.

I am

asking only for —
MR. KELSEY:

;

I am just throwing it Out,

because 1 want something on the record.
THE COURT:

i

.

..

Let me make it very clear, in the

event that that charge is convicted, I will not

3
■a

24

sentence --

25

higher than what the guide would be for Third Degree

cannot and am barred from sentencing any

FU2.4 ~ZO

4H

v:

VHHHIS OIHOUW ioj BZl JO ITT 6d. LLLtLB :jsa

\

*vs

:•

:

iv;-*

1

707

Murder.

-■

.

MR. KELSEY:

4:-

sentencing above what voluntary Manslaughter would be.
I just don't know.

•••s'itfV/. .

•*

f:

fci;

‘

‘

;

'*

i’rrJ-r-t.'vi-?}

•' •~?A;<

hihgg^thv;a|ii...Attempted-.-Hemicide^;we are
.

./.

•

’

»•
*S
\Y

|

•

i

.

.

i

-Thirdl Degree Murder* and that is it.
.

■i ■

-

A

THE.VGOURTr'sr; i D0. • youneed any other

■/

-Hi

■5

v!4

i

in Strut t i ons?
.r

-V.

Tv>.

•V

•

aaaybec thats is.
......

'

'■■■'■'

'

. mayb.e-.-ov

i

’.

■

..'

16'd- ydu should amehd\ your infofmation to call for Attempted
A

Third Degree: Murder as the charge, i ns teald of Attempted

.A

■k

^Criminal;Homicide.

*.v

.:
(W 'Si/:

MR. GHARLE SI

:19«

£&

, .. -."y .:•;•••• ' • -

:|sg:y

■ ,;»4:

m *.

If you want to designate It

•-i'

20
'

that, that Is fine with me> that is a matter of
■'■■■'•'

'

'

'

2i: semantics.

’

'

That .is- what we are / .asking.
•. ...

22

THE COURT:

'

Attorney Wynhe

' that is -up;

23 «...if.;
if/syou s t ipulat e ,/idh the InfOrmatidn

. xyt

r■

'

m

T’i

iff

. ( •

17

■■

../vf

C

15
'

'

si
m

h asking f or an ins true tion to the Jury on Attempted

13
»

incase,, you -

:

12
■

M

as you go later i.

'

m

# '

cha-rge general homicide, and then you select the grade

....
...

' .s- •

f

A,

10

■ifc

*

i

8

...

.

MR. CHARLESI don't agree with that at

V ■ 9

.

.

■

7

...

And I am not even sure 1f you

charge that if you're not going to be prohibited from

6

'

->

3

5

r-

Im
1^1

And the Jury can?t either, obviously.

2

t-

<

, 54 jk&

24 ; Iferiniinal^htfeEipt tO COmmitsHoinieide,>v ; T h i r d D e g r e e ’ '■
!
r’

•

'

....................... .. '

\y.

25

<^

IPCjea-oPt.

Arr ct- v

imcv
• ..I

. ../i,,

•*
:>r
.
> -

. v-m-®•ft

i

■l-/:,

■ 708

.?<

r

;

ft

i:

tr*.

2

I

?

fiMR?*fedeARi*#^s^M tth ■;me.
v.

3
:•

}

MR i f KELS EY-:

vThat solves the problem. •.',

THE COURT:

And then I am going to give a

'",v>

4 ' charge
.=■

5

if::

V:^f^oi^d^-nas^i..;r^p^^^;^^thet■ you# -

:<■>■

chhhge that on the lafprraation, sot> that■:

... 6

f
li

■i.

'

}4 v t >

M

to­

8!

Criminal homicide, Third Degree.

9

on every one.
■

MR. CHARLES:
MR. KELSEY:

il-

p.‘

•:

■-m
:3 .
vS;c

I will put it rig

That tsv-fine,.#
I have another thing I Want to

'

.

.

.

•

.••*■1

-■■#•.

put oh the record while you are doing that, and I. .don't r

12

m

well, let >

’

10

the only reason I am doing this ig because ti

, |;;o; M
?. £

.,Svi3

know

:{}

14

am not sure.. ■ It would be my request to have the charge

15

of failure' to call a potential Witness

ip"
St, • ■
-

; •Sc

I(

li

.1

} ';C:f
.•;j

■R

' '

..

V\ :7,.C

• .'

'

. '■

- '■* .7'^ '

m

:

My — . you had mentioned that the, rha^oh that

S. 16

fr \

m

that was not going to be allowed wast because of the - '

17

1tr-

I would merely state that

tfS-fc'Vcf^1 :% ^ ?

aya;|iphiiity:-Of a--witness,

l :•/

for the purposes of the record
! .

20

Dias, was not called by the Commonwealth, was

21

subpoenaed by the Commonwealth.

!

*“Afi

£*•

if

v.
• v..f ;

•'

.

.

''

She testified at the
::C

•22 i preliminary ^hearing on behalf; of . the Co m m onwealth.
*23

And if we were to call her, I believe that

24

she might have some 5th Amendment Rights that would ,

.l-x'-S

i«i-

i

V

/

.• 25
.:

have prohibited her • from; being'' available*: And that, is

3
<;•

:
ij iTi'

’f
Hii-

P MU_«r4- >J VSl
'
c
'
:
Ref: 874777 pg 25 of 129 for ANTONIO SIERRA

yV

•

-

r

■-

;-T

X

709
i*

■.*

why I say that she may not be available,

2

she would have those 5th Amendment Rights not to

3

testify, if called.

4

THE COURT:

6

do net agree, because Unavailability is at the time of

7

trial» and those facts were not before me.

testimony put on or evidence from any party that She

10

was truly unavailable,

II

unavailability —

12

then I would addfess that issue, but it was not done.

13

She was not subpoenaed, so therefore, I won't grant

■14

that request.

15

And I do not believe that

if you invoke the 5th Amendment,

(End of discussion in chambers.)
CHARGE OF COURT

17

THE COURT*

*

1

■

'

;'.t *

111

•

IB

gentlemen,

19

instruct you on the law.

20

of a preface, however, in this particular case, because

21

I don't want inquiring minds to say, why. Judge Kline,

22

can't we take this and read it?

It is now at this juncture that I will

>

Let me give you a little bit
■

23

-v.;

I

Very simply, the Pennsylvania Supreme Court

24

has recently again, but very clearly said that you are

25

Upt allowed to take notes..
V-

■

'h
as?

■

Good morning, ladies and
.

if#

I still

You did not subpoena her, there was no

16

r

bet me rule this way, though I

understand your argument, it still does not

9

■'

it is because

5

8

ft

.5

I
•

■

-■

.

.

•

3

■

And we, as Judges, ate not
Ci to
'

Refj 874777 pg 26 Of 129 for ANTONIO SIERRA

P

.%

■

£.

£
s

17
1

I hereby certify that notification of filing

2

the within transcript of testimony was given to counsel

3

of record this

4

53

day of

,, 1999

I hereby certify that the proceedings are

5

contained fully and accurately in the notes taken by me

6

on the hearing of the above cause, and that this copy

7

is a correct transcript of the same.

8

Yv.uQoa

9

JwtSOjL

.

MARY ANiAaLLWEIN ,
Officia
Court Reporter

10

11
12
13
14

The foregoing record of the proceedings upon

15

the hearing of the above cause Is hereby approved and

16

directed to be filed.

17
it

18

if5fE—

19
20
21
22
23
24
25

FZTyj-Vte.iT c* u

Ref: 874777 pg 28 of 129 for ANTONIO SIERRA

Ci/?.

*r-

' --

<mS

I i*

-

4

£
fe.

INTHECOUR

:
I

I

If

1

CRIMINAL

bi

a*
$

•tmmmmmmsm <»i^BAN©NG0iiNTf»
PENNSYLVANIA

«

&

tl.

£
Si
fc

COMMONWEALTH OF
PENNSYLVANIA

r-

t

s

«

i

i

a

s No. IS9T4*^ ^

y.

?

u

ANTONIO SIERRA,
Defendant

::i;

c;

I6
|
t

/

JS

APPEARANCES:
BRADFORD H. CHARLES, Squire
District Attorney of Lebanon County
5i

•

THOMASK.WYNNE* Esquire

Attorney For the Commonwealth
Attorney For Defendant

■i

:

i

t

I

OPINION, KLINE, J-, February 17,1SS9.

I

I

I

ioSterrsfc
Before us is Defendant Antonio

3

ofMatteRt

Complained of oo Appea1 in whieh Sierra appeals his sentence imposed

*•
»•

following hia jury trial conviction. PorouanttoPaJLApp.P. 1925<a).«ewnte

i

f ;

1

this Opinion
ri,
f'i

.

f

l

I

excessive, bat, rather, fair and a

V

-*• ;
ti
*)
\
It

case.

M

*

l

t

1H:

in

vi

n

Sierra was convicted on thirty-one (31) canminal counts, including, inter

;o
$i -

2
t

aUa, Criminal Attempt to

Commit Criminal Hofflidde, Robbery and Arson,
r
'"■CX

Ii

Evi4-ifa.rir

ae* 1

- .*

V

fUM- tff- "tail

< I

i* ^
■i

’ j

8

;

v: •

A$f- 5r*S
Ref: 874777 pg 30 Of 129 for ANTONIO SIERRA :

</ra

n:
BW THE COURT OF COMMON FLEAS OF LEBANON COUNTY,
Pennsylvania ■'

V

:
:;*-v

'

j.*

s.

' 3#

CRIMINAL
K

.

COMMONWEAI/IH OF
«

: No. 1997-11239

V.
■:''

y-:!& . ■■'■■■■:: ■■..fi-V ■

V

ANTONIOSIERRA,
Defendant

*

,*

v.

m

■-

;

.V<;fS

■£■■' ^i^ii^ypPEARANCES:
DEIRDRE M. ESHLEMAN, Esquire
\ District Attorney of UbanonCoxmty

■I

V CHAELESP. BUCHANIO,Esquire
• *. \

AH

y Far tbsftmumraweatth
■ ‘ SUS#

Vi"S£
S'

■ Attoraiey For Defendaut

SIS

£:\

Is

mt
OPINION, KUNE, ^ August 10* 2000.

:•

;

B^hbb as is Defendant Antonio

-Ks*.—■.

Complajjaedofon Appeal in which Siena appeals hia sentence imposed ;:

!■■

■h.

:*•?.

ji

a

•. •.

-f *

i#«S.
Jl?
mmmt

m

• fj'XS:

.:

esbesswe^liiit, railliezi iair and appropriate

... m
- :.•

•

*■

••••••'• .v

case.
~ir.

.i

tii

.•

•••

• •>. .?&'M

4y-

1
:•

Refj 074777 pg 31 of 129 fog AHTOKIO SIERRA
•

-•■•

•

A?f,-G'c*

'': ■ fvAV

*-,H <}
u.. —

sfe&ft

JSP^'y'
;v\

f

.-.i

•/

-f
V
■If /

Sierra was eonvieted on thirty-one @1) criminal jcounts, including, inter
s-

nlin nwwiwal Attempt *» riwimiftfirimhiBl Wnmirada, tfohhery and Arsnn.
fhUnghig nn iwrMpnt that ocenned in a second floor apartment on Main
Street, AimviBe, PemiByivama oil November 4,1997.1 To appreciate the
brutality of Sierra’s rrhnftB, we will present afectualhistory of the events
surrounding the case.

i'

4 -

fa

On November 4,1997, sometime in the early evening, Sierra, bis two
brothers, David and Samuel, and Carol Diaz (“Diaz’7) were passengers in a
vehicle owned and operated by Jose Ortiz (IlOrti/). Sierra and David were in

1

town from New York City, and the brothers needed to obtain some money to
return to New Took. While the group was driving around the City of Lebanon,
,

tlm Sierra farotbere direassed tentative pirns to rob someone that evening to
lAtaiw tho Tiftcggttnry mnnifis. intending to divert attention a^y from the
Sierras’robbery plans, Ortiz drove to AnnviQe to see some off has Mends*
Ortiz proceeded to the residence of Lesa Taylor. Ms. Taylor was not
home at the time; however, two of Ortizs friends, Anthony Miles (“Mites”) and
Daniel Baker (“BakerO, werepresent* and they permitted the group access to

iiSi^BA«^r.«iwpnliy«inrfB htt- aa follows: throe Oft coanta Criminal Attempt to Commit
rVrmfnWl TfrwmiriAar «mr ffifr rrmmitz AgjjrrmHtted Awnlt: three flfl OGdltR RfltfclBBBly EndaagEPBg
X

>- IT

three (3) counts Theft I^OnlairM Taking; one (D oomtCrioninal Attempt to Commit Theft By
night ^ mmife Rnhheay: andacafl) amiitflMUMlCu4^MUji> ■

$

-l.-:

C»iS"

2
(fCVLAV:.*

Ref: 874777 pg 32 of 129 for ANTONIO SIERRA

Aet**10

iZm:3.

■a

APPELLEE’S BRIEF
(page 3-9)

■

In Re:

OOMCNMEALilH OF PENNSYLVANIA vs. Antonio Sierra
Superior Gourt of Pennsylvania
Action no. 593 MDA 7004

AUIftBED m :
Ms. Jennifer «. GETTLS, Esq.
First AasisLanc District Attorney
P.A.I.D. no. 79191
<2cM£X«EALm OF PENNSyLVASlA, LS3AS0S COUNTy, PA. 17042

&
••

While the Commonwealth concedes that there is no such charge as “third degree”
attempted murder; the Appellant should have preserved this claim during his first PCRA

x
claim of ineffectiveness. Then a hearing could have been held to determine if there was a
*

f:

logical, strategical basis for the actions of Trial Counsel Furthermore, even if This
Honorable Court should determine that foe Appellant’s challenge is one of “legality of
the sentence”, according to Commonwealth v, Fahv. 737 Aid 214 (Pa 1999):
1 .

“Although legality of sentence is always subject to review within foe PCRA, claims must
iv

still first satisfy foe PCRA’s time limits or one of foe exceptions thereto” Fahv at 223.
&

■

T■ ■

The time limit for filing claims is one year fiom foe final judgment in foe case, which
here would date bade to October of2001. Finally, foe Commonwealth submits that none
°f foe enumerated exceptions apply to the Appellant’s case.3

• ••

As such, foe

Commonwealth respectfully requests that This Honorable C&urt deem foe Appellant’s
issue as waived.
■

:

“fir. dc.P-

£eu*v{ti
i

V

i

•r-..-;

%

SciHfei-t- C • I
V

Ref

874777 pg 64 of 129 for ANTONIO SIERRA \

yfyf *r- ^

I

Efanoranlni In Raspcnse Tb
fttittaners ttdt of {tteas Corpus
(pagp ID)
In Re: Antonio Sierra vs* Cdg^UbetiDj efc al»
U.S* DC. M>*
Civil no* 3<y-o6-o6c£
.Oi3pI5D
t
■&

In the case at bar. Petitioner was convicted of Criminal Attempt to Commit

hr- >

%

f

Criminal Homicide - Third Degree. Petitioner argues, albeit technically correct,
that die Commonwealth does not have a statute for what he has been convicted of
- It is true that a person cannot attempt to commit a non intent-based crime.
However, Petitioner fails to recognize that according to the charge to the jury,

|p

he

was actually charged and convicted of an intent-based crime, and die grading of
Third Degree is merely a matter of semantics. Moreover, the matter of semantics
was created by the Petitioner himself, seemingly to limit his own
exposure to a
harsher sentence that would be coupled with a conviction of Criminal Attempt to
Commit Criminal Homicide - First Degree. Here, the Petitioner essentially

wants

to “have his cake and eat it too” as he requested the grading of Third Degree to

t:

reduce his possible sentence, and now attempts to use the same grading as a means
frj’

fe-

*

of getting rid of Iris sentence altogether. For these reasons, Fiore is not controlling
iit this case as die Commonwealth met its burden in proving that Petitioner
was
:.v

guilty of Criminal Attempt to Commit Criminal Homicide, regardless of die
grading.
p- CtP.-ble Otbf kjfrll?33 m t
i
1

;

-J. nna®, e&j,
I aristopar j. axx
District Attorney Usgd. Intan

P.A.I.O. no. 83^>l

s
•V

F.M.D, no. I jjit 'STf,

QMiNBsnH of mmwmti, tsvra enm, rviroa

. V .-w

(f'W-thsted).
Ref: 874777 pg 76 of 129 for ANTONIO SIERRA

Apf ^12.

/.

•

Form DC-135A

Commonwealth of Pennsylvania
Department of Corrections

INMATE’S REQUEST TO STAFF MEMBER

INSTRUCTIONS
Complete items number 1-8. If you follow instructions in
preparing your request, it can be responded to more
promptly and intelligently.
2. Date:
Qj - H- iq

CIO \
1. To: (Name and Title of Officer)
3.

By: (Print Inmate Name and Number)

4.

Counselor’s Name:

MAltTucc.J
5.

Unit Manager’s Name:
~£-v I Vv^uArvO

Inmate Signature

6. Work Assignment:

7.

Housing Assignment:

tV'-.'T8.

Subject: State your request completely but briefly. Give details.

__C. Ip^

fi fc-

gT\t_e

tOoViu, TSt***^_____

f
V\ru>->4 \a)V~lc^(- 4^

CC,’.

vs

0,lyVtL\C - OQ*V\MS<^K/
Un>W>-^-~ TAWl
C** £-iV. t&FwA

9. Response: (This Section for Staff Response Only)

To DC-14 CAR only □

To DC-14 CAR and DC-15 IRS □

STAFF MEMBER NAME

___ DATE____

Print

Signature
Cyt4tf&h A[
-13 f'CPA- 0 C?

7.2.1, Counseling Services Procedures Manual - Section 3, Request Slips

Aff ix- >3.

Attachment 3-A

RELEASE OF CORRESPONDENCE NOTICE FORM
To Mr . Ciacii (WARDEN), Ms. White (MAIL ROOM) and/or
Subordinate personnel

•September Lf, 2013

YOU are currently actiny both individually and jointly to fail to mail a
considerable amount of- correspondence which ware proparly suomitied to iOU for
mailing during the period of this incarceration at SCI-AloionThe various places of such correspondence dealt with le^ai, political and
personal matters - None of such correspondence. t^r#ataaed^.contemplated.: dr- .
included plans for any criminal activity whatsoever, none threatened or posed
any clear and present danger of physical harm of -violence to any person, none
was obscene, and none was written in any form of coda, Said uamaiisd
correspondence includes out is not limited to the following.
A)
B)
C)
D)

Correspondence/response oy the Commonwealth Court of Pa., of 1/14/2013
correspondence/ response oy ACLU of 1/17/19
correspondence/ response oy Supreme Court of Pa, Prothoaatry for t/22/13
correspondence/ response by Supreme Court of PA for 1/2-3/13

E) correspondence/ response by US.Court of Appeals for Third Circuit for
2/11/19
F) correspondence/ response oy Commonwealth Court of Pa for 3/13/ 2019
G) correspondence/ response oy ACLU Eastern Region for 4/1/19
E) correspondeaca/ response by US.Supreme Court for 4/3/13
Please release these correspondence to Me within five days of this notice,
• [or SEPTEMBER 23, 2013] or I shall oa force to file a le^al cause against youThis is My Second and final request Sincerely,
Antonio Sierra, Ph.D.,
DV-Oodo

AC la)
TO

Form DC-135A

Commonwealth of Pennsylvania
Department of Corrections

INMATE’S REQUEST TO STAFF MEMBER

1. To: (Name and Title of Officer)

INSTRUCTIONS
Complete items number 1-8. If you follow instructions in
preparing your request, it can be responded to more
promptly and intelligently.
2. Date:

3.

4.

~ ■ S~Ofc- A C
i\ iivrc

i-Vi)-7»-

By: (Print Inmate Name and Number)

Counselor’s Name:
(MAnzvutJ

5.

6.

Inmate Signature
Work Assignment:
L/vVf- .

Unit Manager’s Name:
'gijflVAr-'

7.

Housing Assignment:

8. Subject: State your request completely but briefly. Give details.
(jA/Ctojfcca /j ^
Le*\>g c/=
‘ckT
<?f -z-s^/ *¥

j/uu Ashzex?

vjUa-t

irgMj

/Z<at6>o»a)

y^UL/

^g>^g- CQr^P UC^-7<TTn. ^4>JD ~TV>

■Sgr^ra v/iA-/ AOPrg3 bP1 -rl-h£ A^t?7<Cg~.
VL&m’s ~r*Uts- A^OT-rcg---- Vb^

^4-cc

y^QT<It£

VtA^

—/4etUJ|go/yv&<>y ^4? ylv
CwiftsNnt^
pLts^z^ rgg" ./4-fooiag-Q
| 7^ /->y FVrv/'^K, tf\W3Ltje. T>Ms •
74tVr'^y(v F^CilZ
CC‘.

\/*AS

iiMti wxrit

io<—' ,

t»JW(U>gi-J

fU3i+4 ~~
rMf

9. Response: (This Section for Staff Response Only)

(SLAs

us,•A^Cd PUa^A^j.

/uJma^o ^L&cl/&

wc.

/y~AA/iKP
£L

To DC-14 CAR only □

To DC-14 CAR and DC-15 IRS □

STAFF MEMBER NAME
Print

V

Signature

dateJ:

t

I

7.2.1, Counseling Services Procedures Manual - Section 3, Request Slips

Attachment 3-A
£• 210-2

C0
01

m

-V

~o
Form DC-135A

INMATE’S REQUEST TO STAFF MEMBER
TO '•

Sc.)

OJ
3>

INSTRUCTIONS
Complete items number 1-8. If you follow instructions in
preparing your request, it can be responded to more
promptly and intelligently.

c.h\
1: To: (Name and Title of Officer)

2.

By: (Print Inmate Name and Number)

00
aa
t—»

Date:
ei~ )

3.

l\3

Commonwealth of Pennsylvania
Department of Corrections

7jnf(

4. Counselor’s Name:
5.

Unit Manager’s Name:

7.

Housing Assignment:

6.

Inmate Signature
Work Assignment:

8.

Subject: State your request completely but briefly. Give details.

m - C6'&?
€~vu-/vJ5c.

/r <x

<• >

* 4-

£Xfy

^fiu

■e. ej -t

re/tm

FritTA.

C

)

^4

,9. Response: (This Section for Staff Response Only) •• »'.V-

Aa6

L^IW?

/V>)6o^,7^

To DC-14 CAR only □

Q

AArt.
7^-3

lun^rzA^

To DC-14 CAR am

>

IRS □

STAFF MEMBER NAME

DATE

Print

Signature

7.2.1, Counseling Services Procedures Manual - Section 3, Request Slips

J*ff- $.Uo

Attachment 3-A

R-Z'X'z

COMMONWEALTH OF PENNSYLVANIA
DEPARTMENT OF CORRECTIONS

DC-154A Revised 7/2009

No.b 727965

d-

$

Confiscated Items Receipt (Inmate)

O'

DC-NUMBER'

Inmate Name

Cell

Facility

SCX-t-ilOio

C "

sk *o
o ^
4-

Misconduct Report
□ Random Search
Prepared
□ General Search
□ Yes
$ No
□ Investigative search
Disposition
ltem(s) Confiscated

Comments:

1• I

2.

■V

X) s3
^ c.
JGt —

^ "r '
^

■

Le^iOi t>Ku (
ff U,.<;

ltem(s) Confiscated

3.

4.

5.

6.

7.

8.

9.

10,

Time

Date

(//'/~Af

//to

Disposition

-a

□ Uniform Commercial Code (UCC) and Paper Terrorism Materials

i?

3>
C J
33
OO

nt

a »->
V

UCC and related material will be confiscated and will not be subject to a disposition other than return to
the inmate, destruction or forwarding to the Chief of Security or Chief Counsel’s Office. Upon
confiscation, the inmate has 15 days to file a grievance, in accordance with DC-ADM 804, “Inmate
Grievance Procedure.”
/
Signature ap'd Title oi/Staff Member Confiscating the ltem(s)
Lf/
£cii
Signature ahd'Title’of Staff Member Disposing the ltem(s)

b

J?
White-DC-15

JZ

Yellow - Deputy Superintendent for Facilities Management

Pink - Inmate

-:

■rrf

\

f

'
•
10 $0

’

S'

'HV
t
\s
I

—c ^

O' £

flit
> ^

C>

* 3

x:

irv

-2-s
F>

&
&

DC-NUMBER

Confiscated Items Receipt (Inmate)

□ Investigative search
ltem(s) Confiscated,

■l
f".«v

1 ■ (JS

/Ar sr AS £_____

2c<r*/3

r ■-

C\ t

u

30 ■

__

C

ij&

li

Cr-

i;r.-

7N

£ 35

•V

> 3
%

era,

*-

f,.
s-.

3

0 St

/*££sxf'Vl/<rc<?la f

f

5.

6.

7.

8.

Disposition

9.

10. y

s'

X
4

□ Uniform Commercial Code (UCC) and Paper Terrorism Materials

A

x

i
27
/

~r—-

i

.4

W

4.

4•s

A

ltem(s) (|onfiscated

2.

Time

%

mm

Disposition

j

L
l

1
■J

3
.4

f
i

i

.3

£

i <

‘ UCC and related material will be confiscated and will not be subject to ^disposition other than return to
the inmate, destruction or forwarding to the Chief of Security or Chief Counsel’s Office. Upon
confiscation, the inmate has 15 days to file a grievance, in accordance with DC-ADM 804, “Inmate
Grievance Procedure.”
{Siqhature and^Pitle of Staff MembepOonf iscati.ng the ltem(s)

1

'

o

-A

*

uate

m

■‘t

(»

s s -D& ^

JsrV/3
Comments;

■3

A

v : ■

iV v

rt)
j f.

Facility

-v*

k‘.

•±> *»

Misconduct Report
Prepared
□ Yes JyNo

c*a«s/zr

vy’

<

Ft

Inmate Name

S: $ □ General Search

%

(vV

V

/r«Af**»«/ /-&/ ____

Signature and Titli of Staff Member Disposing the ltem(s)

[

7
7',;

'

fc'-i

\t

No. s 727972

N j: J3 Random Search

V)
r'
2?£S ;-0
r CO HV

>

COMMONWEaIIh OF PENNSYLVANIA
DEPARTMElf OF CORRECTIONS

DC-154A Revised 7/2009

White - DC-15

L

■v
*

. ;l

'

%
*

Yellow - Deputy Superintendent for Facilities Management
-jJL—...

7^

4

Pink - Inmate
V

f

COMMONWEALTH OF PENNSYLVANIA
DEPARTMENT OF CORRECTIONS

DC-154A Revised 7/2009

VS

t

No. b 727978

v>
DC-NUMBER

Confiscated Items Receipt (Inmate)

C R-L1*
qvjjM rirr->p.fi
Comments: - ?
Misconduct Report

Time

Data

Facility

Cell

Inmate Name

i
!

• v d } r)

-SLirsy

□ Random Search
Prepared
□ General Search
□ Yes
,t*CNo
□ Investigative search
Disposition
ltem(s) Confiscated
tr
*
1.

w -T ^ 3 £

*\ p -o —
HM 3 *>
«

<P 2.

4S £§-5^
------- o

*g °

l

m

ltem(s) Confiscated t
C
ovj jli
Co;
j
IV hr[(umcf'i

.

disposition

f

3.

iuku,.Loa ;ra/i-^

• ;‘i

i

v

5

1- t\ St. M ^ ;1 Uj<®

I pc.• UEGftL i -

j ii3c ?

4+K/ey
,

6_

■

/

5.
8.

7.

i

10.

9.

■ si

"1i

UCC and related material will be confiscated and will not be subject to a disposition other than return to

M
% »

2«r
S'

<15 ;i

*«
o

? s>

(V ip-

Grievance Pr^edur^'

^

, /}/y

y

0

T

<S £ 5
J

^

N

^

!

/JJ.l'fMg*

Signature and Title oi Staff Memtoe/confiscatirfg the Item(jf)'
<
Signature and Title of Staff Member Disposing the ltem(s)

4

•O

I

<X

□ Uniform Commercial Code (UCC) and Paper Terrorism Materials

%
I--

4:

ck

White-DC-15

Pink - Inmate

Yellow - Deputy Superintendent for Facilities Management
.4

Notice Regarding Disposition of Stored
Incoming Privileged Correspondence

C3
To:
From:

DV0686

SIERRA, ANTONIO

T. White
Corrections Mail Room Supervisor, SCI Albion

Date:

8/29/2019

As you were previously informed, the Department is undertaking to dispose of
original privileged mail that has been securely maintained under its previous
majl handling policy. Department records indicate that sealed original,
privileged correspondence exists for you as follows:
Date Received:

1/14/2019

Sender Name^

COMMONWEALTH COURT OF PENNSYLVANIA

Sender Address:

601 COMMONWEALTH AVENUE
HARRISBURG

9

Receptacle No:

PA

17106

Please Select the option below as to how the sealed and secure original
document should be disposed:
Returned to sender at DOC cost; or
Confidentially Destroyed by the contracted vendor at DOC cost

Inmate Signature:

Staff Signature:
£vH-[fetT AfO
To Pee-* «s=
2-01*1

Notice Regarding Disposition of Stored
Incoming Privileged Correspondence

To:
From:

DV0686

CB

SIERRA, ANTONIO

T. White
Corrections Mail Room Supervisor, SCI Albion

Date:

8/29/2019

As you were previously informed, the Department is undertaking to dispose of
original privileged mail that has been securely maintained under its previous
mail handling policy. Department records.indicate that sealed
privileged correspondence exists for you as follows:
Date Received:

1/17/2019

Sender Name

ACLU

Sender Address:

PO BOX 60173
PHILADELPHIA

Receptacle No:

9

PA

19102

Please Select the option below as to how the sealed and secure original
document should be disposed:
Returned to sender at DOC cost; or
Confidentially Destroyed by the contracted vendor at DOC cost

Inmate Signature:

Staff Signature:
At20
'TV* PC^i

Pi-lTa

Notice Regarding Disposition of Stored
Incoming Privileged Correspondence

To:
From:

DV0686

6

Cd

SIERRA, ANTONIO

T. White
Corrections Mail Room Supervisor, SCI Albion

Date:

8/29/2019

As you were previously informed, the Department is undertaking to dispose of
original privileged mail that has been securely maintained under its previous
mail handling policy. Department records indicate that sealed original
privileged correspondence exists for you as follows:
Date Received:

1/22/2019

Sender Name

PROTHONTARY, SUPREME COURT

Sender Address:

414 GRANT STR, SET 801
PITTSBURGH

a

PA

15219

Receptacle No:
Please Select the option below as to how the sealed and secure original
document should be disposed:
Returned to sender at DOC cost; or
Confidentially Destroyed by the contracted vendor at DOC cost

Inmate Signature:

Staff Signature:

hmats IQiUsrisd

ExUie.iT
"TVS

PGRA

R/Sa.

9

Notice Regarding Disposition of Stored
Incoming Privileged Correspondence

To:
From:

DV0686

eg

SIERRA, ANTONIO

T. White
Corrections Mail Room Supervisor, SCI Albion

Date:

8/29/2019

As you were previously informed, the Department is undertaking to dispose of
original privileged mail that has been securely maintained under its previous
.mail handling policy.-Department records indicate^thatLsealjed original
privileged correspondence exists for you as follows:
Date Received:

1/28/2019

Sender Name

PROTHONOTARY, SUPREME COURT

Sender Address:

414 GRANT STR, STE 801
PITTSBURGH

Receptacle No:

9

PA

15219

Please Select the option below as to how the sealed and secure original
document should be disposed:
B Returned to sender at DOC cost; or
® Confidentially Destroyed by the contracted vendor at DOC cost

Inmate Signature:

Staff Signature:
ExtHferr AiH)

yArpi?<3-2?>

Notice Regarding Disposition of Stored
Incoming Privileged Correspondence

To:
From:

DV0686

SIERRA, ANTONIO

T. White
Corrections Mail Room Supervisor, SCI Albion

Date:

8/29/2019

As you were previously informed, the Department is undertaking to dispose of
original privileged mail that has been securely maintained under its previous
mail handling policy. Department records indicate that sealed original
privileged correspondence exists for you as follows:
Date Received:

2/11/2019

Sender Name

US COURT OF APPEALS OFFICE OF THE CLERK

Sender Address:

601 MARKET STREET
PHILADELPHIA

PA

19106

Receptacle No:
Please Select the option below as to how the sealed and secure original
document should be disposed:
Returned to sender at DOC cost; or
Confidentially Destroyed by the contracted vendor at DOC cost

Inmate Signature:

Staff Signature:

TO

i

4/W4.''**’*'

OC

"2-0 tc*

Notice Regarding Disposition of Stored
Incoming Privileged Correspondence

To:
From:

DV0686

(oZ

l

SIERRA, ANTONIO

T. White
Corrections Mail Room Supervisor, SCI Albion

Date:

8/30/2019

As you were previously informed, the Department is undertaking to dispose of
original privileged mail that has been securely maintained under its previous
mail handling policy. Department records indicate that sealed original
privileged correspondence exists for you as follows:
Date Received:

3/18/2019

Sender Name

COMMONWEALTH COURT OF PENNSYLAVANIA

Sender Address:

601 COMONWEALTH AVENUE
HARRISBURG

PA

17106

Receptacle No:
Please Select the option below as to how the sealed and secure original
document should be disposed:
® Returned to sender at DOC cost; or
m Confidentially Destroyed by the contracted vendor at DOC cost

Inmate Signature:

Staty Signature:
px tttfel-T Ate)
To A! P*-

RZU.
Ayop-

Notice Regarding Disposition of Stored
Incoming Privileged Correspondence . . .

To:
From:

DV0686

SIERRA, ANTONIO

T. White
Corrections Mail Room Supervisor, SCI Albion

Date:

8/30/2019

As you were previously informed, the Department is undertaking to dispose of
original privileged mail that has been securely maintained under its previous
mail handling policy. Department records indicate that sealed original
privileged correspondence exists for you as follows:
Date Received:

4/1/2019

Sender Name

ACLU EASTERN REGION

Sender Address:

PO BOX 60173
PHILADELPHIA

PA

19102

v\

Receptacle No:

Please Select the option below as to how the sealed and secure original
document should be disposed:
Returned to sender at DOC cost; or
ID Confidentially Destroyed by the contracted vendor at DOC cost

Inmate Signature:

Staff Signature:
Exi-Himt A Cl)
-a ret-*-

Pi -22 3

Notice Regarding Disposition of Stored
Incoming Privileged Correspondence

To:
From:

DV0686

e.e>

SIERRA, ANTONIO

T. White
Corrections Mail Room Supervisor, SCI Albion

Date:

8/30/2019

As you were previously informed, the Department is undertaking to dispose of
original privileged mail that has been securely maintained under its previous
mail handling policy. Department records indicate that sealed original
privileged correspondence exists for you as follows:
Date Received:

4/3/2019

Sender Name

SUPREME COURT OF US OFFICE OF THE CLERK

Sender Address:

WASHINGTON
WASHINGTON

DC

20543

Receptacle No:
Please Select the option below as to how the sealed and secure original
document should be disposed:
m Returned to sender at DOC cost; or

Confidentially Destroyed by the contracted vendor at DOC cost

Inmate Signature:

Staff Signature:

ExUlBlT M
“to

0 *'
-ZXUf'i

& *3*.

• y‘

vaaais

oinouw j°j set jo s>et

B<j

llltlb

- jaa

\

. -s.

*

*'

' . •c - V

Pennsylvania Department of Corrections
Right4o-Know Office
Office of Chief Counsel
1920 TechnoiogyPaafcway
Mechanicsburg,PA 17050
Telephone 717-729-7763
Fax717,728-0312

•* -•
*;

M >

\

AntDnoSere..OV068& - ,
SO-Afcioo
—*
10745 Route 18
Afcion, PA16475
Re; RTKL #1405-13
Sentencing Reccnter
. Dear Mr. Siena;

as

»v

5

d

V;

• r •

t :

- ■ £
' \ -A

3-

.

i

jI

Your request for jour Sentencing Older and your Cocmfonent Order, other foan your DC-300B Court
ConwTiamentis denied for the fofcwmg reason:
•*.

a

recryd(s)ffiat you requested do not currently adst Whenresjxjndang to a request for access, an
agency is nc4reiyared.lD create a record which does notcuraenBy exist or to compfte, format or oroange
a pubfc record .n a manner in which » does not tarrenfly confute, format or organize the pubfc record.
f5 P.S. § 67.795,- See tejore v. Office of Opon Records, 992 AM 907.905f (Pa. CmwBt 2QimTThe

. 5SssS5ssrSSSSSSSS^^w&-;
sdSSSSs&SSSsSSSaSSSS
of fob response and senMo foe OQR:

X

i

1> fofe response 2) war request: and a foe .reason wtarvouftinfc te'«tw«y
nits
raasonsforsavfoq foal foe record fenotwfofc (a statenfentfoat addresses any ground statedbyfoesracrfor

a

Abo. foe OOR ins an appeal form anraftfote on foe bOR website at
-

“•

hitpg/Awww-dcatLstafa nausteubBtfQQriaooeaabrmoeneraLodf.
\

Stecerefy,

AndrewF&osky /
Agency Open Records Officer
Enclosure
CCS

i?

S^perktoHtailGiroux,SCtAiten
Superintendent's Assistant, SCKAftwm
fife
‘ '

;
!

tf^Lrw^rPemivw zm W
r?

■Appci.’z®
.. »...

-------

c.
■j-ii&r.-;-

R•

vjraaais

oinojnw -joj sz\ jo six

Bd

lllvlb

:joh

>

AGENCY ATTESTATION OP NONEXISTENCE OF REraifflg

\

Agency:

Pennsylvania Department of Corrections

Name of Rcanestnr-

Antonio Sima, DV-0686

Appeal Docket IfamtiH-r

AP#2Q13-1817

Records Renm>*t»H-

Sentencing Order and Commitment Older, other than DC-300B
Comt Commitment
{

i

'm

I, Cheryl Gill, hereby declareunder the Penalty nf perjury, pwnwHA 1g Pq. OS. §

.

4904, that ti» following statements are true and correct based upon my personal knowledge,
information, and belief:
• : a ..
v;

I

Correctional Institution at Albion. If foe specific records requested above were in foe

Si ■
:-®fe

I

I am employed by foe Department of Cbnecdons as Records Supervisor atfoe State

PPP
4 ' ■

&
possesaon of this
Institution, fliey would be retained as official records In files within my

custody. After a reasonable search, I have determined that no responsive records exist within
my custody, possession or control.
I

Date:

toll hi

Signature:

CataytOfil

IP

kAjl

i

j

Records Supervisor
State Correctional Institution at Albion
PA Department ofCorrections
*

;#

1

&■

4s

BH .

^5

■i-

;
i

p±eu trp -£0 lq

I:S|

UNITED STATES DISTRICT COURT OF PENNSYLVANIA
FOR THE WESTERN DISTRICT

Antonio Sierra, Pro*Se Petitioner-Appellant
vs.
No .(7-01 Pgte
THE COMMONWEALTH OF PENNSYLVANIA
vs.
•
The Department of Justice | Deptartment of Corrections | The District Attorney of Erie
Ms. Kathleen Xahe, A.G. | Ms. Nancy Giroux, WARDEN | Mr. Jack Danari, D.A.
Respondsr.t-Appelleaa
CERTIFICATE OF SERVICE

A. I Antonio Sierra, incarcerated Pro-Sa at the below location certify pursuant to 28
USC § 1745 this 2 8 day of December 2016, personally caused to be served the following
attached to this Certificate of Service:
1.) Notice of Appeal to the U.S.C.A. 3rd. Cir.,
2) Appendix A -Crdar of Kovaribor i, 2016, Appendix B -Order of Dacembsr. 2, 2016,

i

4) Exhibit 1- Representation of the U.S.S.C. of 7/16/15 4 USCA of 8/13/15
B. That la sailing wife U.S.P.S. first class mail, postage paid, the same is placed in
the Jailors hands for nailing Ir. ihs normal course of business satisfying the
requirsnants of F.R.A.P. 3(d)(2) and 4(c) and the Houston Buie.

I
;
i

C. ISSUED TO :
1). United States District Court of Pennsylvania
For Hie Western District
17 South Park Row (Erie Division)
Room A-130
Erie, PA 16501

COMMONWEALTH OF PENNSYLVANIA
DEPARTMENT OF CORRECTIONS

CASH
SUP
1. REQUISITIONING INMATE

LOCATION

NAME (PRINT)

cs-U,i|
Ov-Qb'g'iD
2. ITEMS TO BE CHARGED TO MY ACCOUNT

Elrle, Eft 16331
Issusd qponi FRAP. 4(c) &

"f!»&K§ED

e

DATE

v

§
i-

jr~

| Rspr'n of UESC 7/16 4 USA 8/13
of 2D15
fecedpt -RatimabTe

■ USPS TRACKING*
' & CUSTOMER
' RECEIPT

9114
9999 4423 8864 7961 90
For Traddhg or knife* te USPS
od

acd

cr cal 1-800-222-1811.

DEC 2 * 2016
fon&iS ID Wkrtffgj

MAILROOM^^iJw^!
Housing Unft.COis s^tiira-"
Rate M&pfUjfe UfiiiC/B
Cloni

(E

OFFICIAL APPROVAL

5. BUSINESS OFFICE'S SPACE
CHARGE ENTEREO

DATE

^book^eper'

/s/.^Tg
/ID.f DV.oSSS
/p/.antamo sierra, Pro-Se
SCI. Albion
10745 State Route 18 '
Albion, PA 15475

28 Pec-dtolfc

Slates ftstagp, First Class nail service EKjrirad Sr
tte aitachsi Mnlla Bwelope addressed lb :
Unified States District Oourt of Dame. I BPCEURFS
| Notice of Appeal In USX3 Cir.
fbr Ihs Vfestem District
|' Appendix a, QPH3 of 11/1/16
CEFEE CF CtlFK CF Q3EB
| AppsdlxB, CBla: of 12/2/16
' (Erie Dftrtslm)
| Affidavit of Siaxa' Ehiired
17 South Fhrk few
| DEprisailans with ERh. 1,Roan A-190

* in-KD

2). PLEASE TAKE NOTICE, that
the additional copies provided
are for Respondent-Appellees
identified in Notice as stated
below. Thank You.

D. 1-Original / 1 -Copy For She Court with 3- copy's for Raspondeni-Appallee3,
1- copy for PetitLoasr-Appallant pursuant to F.R.A.P. 3(a)(1). - 5- total.

DC-138A

DOC NUMBER

|
j
|
|
|

*%

w
■gs
-P

55
3?

4Pk •

Ape- &-3o

!'£bto
p!

a’Q

IP

App. H.l—16

(1) -2013 to 2015
(a) -State:
On September 9, 2013, petitioner filed a Writ of Assistance, Alternatively Writ of
Liberty in the trial Court of Common Pleas, Lebanon County, Pennsylvania for Hazel-Atlas
remedy; No. 97—11239; And, on November 24, 2014, a State Writ of Habeas Corpus, No.
2013—11239. The trial court dismissed the action with prejudice on July 15, 2014, and
Motion for Arrest of Judgment followed on July 23, 2014. The trial court denied the motion
on August 7, 2014.
On August 22, 2014, appeals followed to the State Highest Court that were transferred to
the State Superior Court, entering an Order on September 29, 2014 to show cause why the
matter should not be transferred to the Pennsylvania Commonwealth Court, No. 1446 MDA
2014. Petitioner clarified the nature of appeal under Federal Law and no jurisdiction in the
Appellate Courts under his particular facts, on October 15, 2014; And on October 21, 2014
the Superior Court transferred the matter to the Commonwealth Court expressing no
argument “is present to retain jurisdiction.”
On October 27, 2014, the Commonwealth Court received Post Communications with
objection to its jurisdiction; No. 1887 CD 2014. On November 14, 2014, the Appellate Court
quashed the appeal as untimely; And, although two other petitions issued on November 20,
2014 and March 5, 2015; the Trial Court issued and Order removing In Forma Pauperis on
October 6, 2014, causing prejudice on Commonwealth Court dismissed all motions on
March 11, 2015.
On April 6, 2015, appeal to the Pennsylvania Supreme Court was again filed; Yet, on
April 16, 2015, the clerk of court wanted an In Forma Pauperis motion added, fees to file on
the clerks set legal course petitioner was to follow; No. 201 MT 2015. An access to court
within Boodie v. Conn. Was field on April 23, 2015, and on May 1, 2015, the clerk modified
her filing fee requirement while retaining the legal course to follow.
(b) -Federal
In May 2015, permission was sought in the United States District Court for the
Western District of Pennsylvania; Yet the District Court declined and In Forma Pauperis
Motion on May 18, 2015. On June 29, 2015, a Writ of Certiorari was filed to the United
States Supreme Court under Burns v. Ohio. On July 14, 2015, the Clerk of Courts refused
filings to seek process in the Court of Appeals or State Highest Court. Although attempts
to file were taken on July 19th and August 8th of 2015, in both Federal Appellate Courts. On
App. H.l

August 13, 2015, the Third Circuit declined review as “they have no authority to compel the
United States Supreme Court to take action.”
(2) -2016 to 2019
(a) -State:
On March 16, 2016, a Prerogative Writ was filed on the propriety of Montgomery v.
Louisiana (2016) in the Trial Court of Common Pleas, Erie County, PA, No. 10808 of 2016;
attached as Appendix App. C. 2-12. On April 13, 2016, the trial court denied the action and
In Forma Pauperis. Id. C.3-4.
On April 29, 2016, petitioner filed appeal to the Pennsylvania Superior Court, No.
631 WDA 2016, and on May 4, 2016 a third motion to proceed In Forma Pauperis [2nd] that
the court docketed on May 9, 2019. Id. After various motions were denied in June and July
2016; the Superior Court denied May 9th In Forma Pauperis without prejudice to refile in
the trial court. The Appellate Court Order set forth the limited issues the trial court may
review excluding the merits on July 14, 2016.
On July 26, 2016, the trial court entered an Order addressing the merits contrary to
the Superior Courts Order. The trial court went further, giving Respondents time to file
pleadings to petitioner’s Writ. In addition, Superior Court Ordered briefs on July 2, 2016,
and thereby accepting the trial courts July 26th, Order, causing petitioner prejudice.
On August 12, 2016 a Writ of Prohibition to both lower courts is filed in the
Pennsylvania Supreme Court with the action of giving Respondents’ time to respond
addressed under Pioneer [507 U.S. 380], No. 27 WAP2016. The Pennsylvania Supreme
Court quashed appeals on November 1, 2016, and an Application for Reconsideration on
December 2, 2016. Id. App. C.8-9.
Moreover, while appealing to the United States Court of Appeals for the Third Circuit on
December 28, 2016, Id. App. G.30; The trial courtjssued an order on January 13, 2017, that
released In Forma Pauper status eight months later, granted to dismiss Prerogative Writ
for lack of jurisdiction; And, while the trial court took great pains to (repeatedly give
emphasis its July 26, 2016 Order as a 1925 Opinion, in order to give technical acts in
evaluating petitioner’s understanding. On January 22, 2017, a motion was filed requesting
a State Corrective process following the courts new revelations and the fact petitioner was
on appeal to the Third Circuit; So, if the Court wanted to proceed, he required an Order
clarifying the process. No State corrective process was forthcoming; attached as Appendix
App. C.6-12.
App. H.2

(b) -Federal:
On December 28, 2016, petitioner filed a Notice of Appeal and Affidavits to the
United States District Court for the Western District, directing appeal to be filed in the
United States Court of Appeals for the Third Circuit, Id. App. G.30.
On January 11, 2017, the District Court granted In Forma Pauperis and on
February 10, 2017 Ordered the filing of a Writ of Habeas Corpus under 2254 “solely.”
No. 17-01 Erie. On February 10, 2017, a Common Law Motion is filed, clarifying the
Richardson v. Miller Rehef pursued. On April 10, 2017, the District Court denied the
Common Law Motion and held the case administratively closed until the Writ of Habeas
Corpus under 254 is filed and thereby causing petitioner substantial prejudice.
On July 26, 2017, petitioner filed his Federal Writ of Habeas Corpus pursuant to 28
U.S.C. Section 2241 (c)(3), to satisfy the Magistrate’s Order while also the evidence placed
at issue. On August 3, 017, the District Court Magistrate issued an Opinion relying on
extrajudicial information to deny petition and remove a party; Notwithstanding the
prejudice, the evidence relied upon by Magistrate Baxter, was ground ONE in the Writ.
On August 10, 2017, an appeal was issued to the United States Supreme Court [28
USC 636 (c) (3)]. On November 2, 2017, the Third Circuit issued an Opinion dismissing the
appeal for lack of jurisdiction and failure to appeal the Magistrate to the District Judge; No.
17-12988. Petitioner appealed pursuant to Marshall v. Holes on November 14, 2017, as he
did file in the District Court against the Magistrate’s actions and should not be prejudiced
by the Court of Appeals for the Third Circuit. Id. On December 12, 2017, the appellate
court granted the action as a Petition for Rehearing and on January 10, 2018 denied the
action.
On December 2, 2017, the United States District Court for the Middle District
dismissed the Writ of Habeas Corpus, pending motion and denied Certificate of
Appealability; The Court’s ruling expressed petitioner did not first seek approval of the
Third Circuit, rely on a rule of Constitutional law nor newly discoverable evidence; No. 3cv-17-1584.
On March 18, 2018, appeal to the United States Supreme Court was sought. On
May 29, 2018, the Supreme Court denied Certiorari; No. 17-8242.
(c) -Federal:
On December 7, 2017, petitioner filed an emergency petition with the Middle
District Court, and On December 26, 2017, an emergency motion to strike judgment, both
App. H.3

on the grounds that denials were based on exactly what petitioner did in the Courts if they
looked at the record evidence. After petitioner answered the Third Circuit Court of Appeals,
for corrections on January 25, 2018, filed on February 19, 2018; the Middle District Court
dismissed the petition on March 1, 2018, on the grounds the Court did not have jurisdiction;
No. 3-cv-17-1584. The Third Circuit issued and Opinion dismissing petitioner’s motion as
an unauthorized second petition the court did not have jurisdiction to consider on March 23,
2018; No. 18-1150.
(d) -Federal:
On April 5, 2018 petitioner sought permission to Amend the Courts Order on the
grounds the Middle District and Third Circuit Courts overlooked evidence as filed on
December 28, 2016, that would place the case in the proper court, instead of depriving Due
Process of law. The Court of Appeals for the Third Circuit responded on May 9, 2018,
requesting a Certificate of Appealability, as the Court could not docket the matter in
precious docket, No. 18-1130, requiring a new docket, No. 18-2044.
On June 21, 2018, petitioner appealed to the United States Supreme Court for a
Writ of Certiorari, not knowing what to do in the lower Federal Courts; Yet, believing the
recent decision would support a favorable outcome. On July 23, 2018, the Court
determined that the Writ was out of time and did not have power to review. On July 30,
2018, petitioner filed for post-deadline extension as the Writ was one day late. The
Supreme Court determined that a notarized statement was to be filed on August 20, 201.
Petitioner followed the Opinions yet as of August 24, 2018, no action has been taken.
(e) -Federal:
On June 28, 2018 petitioner filed a response to Respondents’ decision not to reply to
the Third Circuits June 6th and 13th, 201 notice consideration; Yet the Third Circuit
affirmed the Diddle District Court on September 11, 2018 and stating that the Court lacked
jurisdiction to determine if the District Court properly denied petitioner’s unauthorized
Writ of Habeas Corpus or Rule 60 (b) motion. On October 25, 2018, petitioner requested an
extraordinary remedy to the facts of his case. On November 9, 2018 the Third Circuit
granted the petition as a Motion to file out of time and on December 14, 2018 denied the
motion, No. 18-2044.
On March 13, 2019, appeal to the United States Supreme Court petition for a Writ of
Certiorari, representing that the Middle Districts ruling is in error by denying petitioner a
review on venue, and the Third Circuit decision is in error as 28 USC Section 2241 (c) (3),
App. H.4

was the cause of action filed in the Court that excluded the Jurisdiction of the Appellate
Court, while rendering the actions of the Magistrate of the Western District Court, a
Constitutional error; No. 18-8610.
No decision was rendered, and if rendered, it is unknown as petitioner has been
without legal mail ever since Respondents’ have taken to seize his letters.
(f) -FORM OF ACTION:
1. On September 25, 2019 appellant filed a Motion for Post-Conviction Collateral
Relief (“PCRA”) to the Common Pleas Court of Erie (“Trial Court”), and 15 days after
defendants’ injured appellant causing prejudice. See Original Record Tr. 1-15, R. la
through R. 15a.
(g) -PROCEDURAL HISTORY
2. Appellant is provided a Notice Regarding the Disposition of Stored Incoming
Privilege Correspondence by defendants on September 10, 2019; Five notices dated August
29th, and three dated August 30th, 2019, where defendants announced having “previously
informed the department is undertaking to dispose of original privileged mail that has been
securely maintained under its previous mail handling policy” [and] gave appellant
opportunity to “select the option below as to how the sealed and secured original documents
should be disposed: (i.e. return to sender at D.O.C. cost, or confidentially destroy by
contracted vendor at D.O.C. cost). Defendants said, in conclusion, appellant had t sign the
notice and return it for staff signature, Id. R. 16a - R. 23a.
3. Appellant then issued a Release of Correspondence Notice Form on September
11, 2019, so defendants release his mail within five working days or by September 23, 2019.
4. Appellant repeated this process on September 17th and 19th, 2019, adding “I
SHALL BE FORCED TO FILE A LEGAL CAUSE AGAINST YOU [and] “THIS IS MY
SECOND AND FINAL REQUEST.” ID. R. 24a - R.27a; Appellant did not receive a
response from defendants. Id.
5. September 5, 2019, Appellant issued his PCRA on Government Interference with
Correspondence as he is restricted access by defendants as directed to serve him and they
chose not to -this is illegal and contrary to the First, Fourth, and Fourteenth Amendments
to the Constitution and laws of the United States, Id. R. la -R. 15a.
6. Defendants submitted a reply on September 26th and 27th, 2019. Appellant found
this as false, misleading, and fabricated information when stating, “No idea of what is being

App. H.5

stated: [and] “demand the return [of] the mail to sender or destroy it by DOC.” Id. R.26a —
R.27a.
7. It was on this PCRA he disclosed defendants’ wrongdoing continued from early in
2019 with his mails, as defendants refused to release while taking the opportunity to
misrepresent, conceal, and fabricate evidence to continue his custody in violation to the
Constitution on a non-criminal charge that is illegal, Id. R.28a -R.34a.

(h) NECESSARY FACTS TO BE KNOWN
8. Defendants had sufficient time to release appellants correspondence once
received, rather than confiscate the mail and seize its information until the notice
disposition of September 10, 2019, causing appellant prejudice.
9. Moreover, defendants Daneri, Shapiro, Clark (and probably Mr. Tom Wolf,
Governor of Pennsylvania), could have informed appellant on or after July 18, 2019, and his
Civil § 1983 Action to the United States District Court for the Western District of
Pennsylvania about any of the numerous seized correspondence, rather than reuse
appellant proper notice and a chance to contest in a meaningful manner, in violation to
appellants Fourteenth Amendment Rights to the Constitution and law of the United States.
10. It is by means of Defendants unlawful detention of Appellant, correspondence
and malicious charges placed against him, Defendants Daneri, Clark, White, Kline, Shapiro
and the Commonwealth of Pennsylvania-in error, intentionally or with deliberate
indifference and callous disregard of appellants rights, deprive him the right to be free from
unreasonable seizure and/or searches, in violation of the Fourth and Fourteenth
Amendment to the Constitution and laws of the United States, Cf..R.3a @ 7.
11. In this unlawful detention by Defendants and seizure, it has continued to date
beyond the final month of September 23, 2019, [Id. R.24a -R.27a] and the alleged time
defendants have used to claim receipt of said correspondence-(i.e. January 14,17, 22, 28
=[Id. R.16a - R. 19a], February 11th, Marchl8th = fid. R.20a — R.21a], April 1st and April
3rd, 2019 = [Id. R.22a -23a], causing injury in obtaining the free flow of information from
valid sources in the power of government that defendants selected to identify as “privileged
correspondence” prior to their illegal actions, causing prejudice and violating Appellants
First, Fourth and Fourteenth Amendment to the Constitution and laws of the United
States, Id.
12. Defendants continue a wrong in confiscation privileged correspondence as mail
belonging to appellant, having no benefit of notice or chance to contest illegal actions as in
App. H.6

September 14, 18, & 27 of 2018 (Id. R.28a - R.30a); Defendants continued wrong is to keep
him illegally imprisoned while causing prejudice and violating his right to notice and
chance to contest in a meaningful time and manner. Id.
13. Defendants prejudice appellants right to use and access the free flow of
information in a fair maimer, before a disinterested tribunal in an impartial forum,
violating his First, Sixth, and Fourteenth Amendments to the Constitution of the United
States, after defendants declared on January 9, 2019, decision that “operations will and
have resumed with many processes being reviewed or altered as necessary”... [and] “it was
necessary to curtail* mail throughout our facilities as it was reasonably related to
penological interests,” Id. R.31a.
14. Defendants prejudice appellants right to use and access the free flow of
information in a fair manner, before a disinterested tribunal in an impartial forum,
violating his First, Sixth, and Fourteenth Amendments to the Constitution of the United
States after declaring on March 13, 2019 that, “operations will and have resumed with
many processes, including the handling of inmate mail, being reviewed or altered as
necessary to honor the Departments commitment to ensure the safety of all aforementioned
parties [and] “to that end, there is no known legal precedence nor rights violations as the
Department is simply diverting the delivery and providing inmates with a copy instead of
the original,” Id. R. 32a.
15. Defendants therefore seize with no probable cause, incoming privileged
correspondence where appellant represents an illegal charge as detaining him without due
process of law, impeding the due course of justice, Id. R.2a @ 5.1.
16. That without probable cause or justification, defendants intentionally agree to
and did introduce false, misleading, and concealed information as evidence about how
appellant was informed of the disposition of his privileged mails and failed to admit to the
evidence provided by appellant on the illegal charging offense and subsequent sentence for
Attempt 3rd Degree Murder, Id. @ 5.2.
17. As a result of defendants intentional and malicious confiscation of appellant’s
mails, he is (A) deprived without cause for accessing correspondence, (B) deprived of about
eight months, and/or up to defendants notice as verified September 10, 2019, to date, and
(c) detained without probable cause on fabricated evidence, where it is more likely than not,
the false information provided on appellants incarceration for Attempt 3rd Degree Murder,
is used to deprive him liberty without due process of law, as it was but for cause of the
App. H.7

actual deprivation that produced the false and misleading information, and often times the
concealed statements to the same effects when appellants incarceration on the non-criminal
charge Attempt 3rd Degree Murder, is unconstitutional, wrongful, and defendants commited
a fraud on the Court, Id. R.3a @ 3.
18. Defendants Clark, White, and/or others unknown to appellant, but known to
Clark and/or White, had knowledge that appellant’s evidence fairly estabhshes the truth
determining process was so undermined that no reliable adjudication of guilt or innocence
could have taken place, Id. R.3a @ 4.
(i) TRUTH DETERMINING PROCESS: (i) PROSECUTOR GETTLE
19. Prosecutor Gettle should not have been allowed to concede there is no such
charge as Attempt 3rd Degree Murder, and then take issue with trial counsels’ effectiveness
(Id. R. 33a); And because...
20. It was trial Judge Kline, and not counsel whom ordered the jury to listen as he
read the law; Kline infringed on the province of the jury power by reading Attempt 3rd
Degree Murder as a charge after said charge was introduced by prosecutors to express, Id.
R. 40a, R.7a @ 6.1- A.
21. Trial Judge Kline was the signing authority that, without providing appellant
notice and opportunity to contest, vacated the charge Attempt 3rd Degree Murder, and did
so twice after trial, rendering the charge void and is contrary to the Sixth and Fourteenth
Amendments to the Constitution of the United States, Id. R. 44a to R. 47a, R.7a @ 6.1-B.
22. The trial court committed an error of law entering a verdict for Attempt
Homicide, when the original verdict entered by the jury is in Attempt 3rd Degree Murder.
In this, no judgment of sentence and no judgment of commitment exists, rendering the
actions of defendants illegal and void because unconstitutional as a matter of law, Id. R.
35a to R. 36a; R. 8a @ 6.1- C.
23. Attempt 3rd Degree Murder is an offense created by an unconstitutional law; it
is not a crime. A conviction under such law is illegal and void, and is in violation of
appellants due process clause to accuse him of this conduct far beyond 20 years, and even
where there is no statute to accuse the convicted, Id. R.8a @ 6.1-D.
24. As appellant demonstrated, Prosecutor Gettle’s statement excluded Attempt
Homicide as an alternative offense, Id. R.63a @ 20A. Ms. Gettle’s evidence was displaced by
the way trial Judge Kline called for “malice” and “intent,” as the incorrect legal standard
to make up the alleged elements in and of the charge Attempt 3rd Degree Murder [and]

App. H.8

defendants were not called in chambers to “lower the degree,” rather called upon the
request by the prosecutor to change the charge. Id. R.65a @31 A-B.
(if) PROSECUTOR D1TZLER
25. Prosecutor Ditzler should not have been allowed to concede, “the
Commonwealth does not have a Statute for what appellant has been convicted of,” and then
take issue with what he alleged was appellant’s conduct during these proceedings and
prejudicing appellant. Id. R.34a; R. 6a @ 6.2
26. First, for all the reasons addressed under Prosecutor Gettle, Id. R. 8a @ 6.2-A,
where Ditzler’s statement that “there is no Statute” undermined Prosecutor Gettle’s
statement that “there is no charge,” a conflict exists. Under Ditzler’s interpretation, the
greater degree of deprivation was felt in appellant after learning for the first time Attempt
3rd Degree does not have a Statute, rendering all acts by defendants as unconstitutional,
prejudicing appellant and violates his First, Sixth, and Fourteenth Amendments to the
United States Constitution.
27. In Ditzler’s concession, as interpreted by appellant, he rendered Attempt 3rd
Degree Murder as the only charge appellant is incarcerated for, therefore rendering any
and all allegations of being charged for something other than Attempt 3rd Degree Murder a
false, misleading, and fabricated statement. As such, there is no instruction that trial Judge
Kline could have expressed to the jury as Attempt 3rd Degree Murder is a non-criminal,
non-charge without a legal standard as a matter of law. Id. R.63a @23.
28. Prosecutor Ditzler’s assertion that appellant sought the charge directly is false
and misleading information as the trial transcripts disclose lawyer Kelsey III was who gave
reason from the crimes codes and sentencing guidelines that there was nothing about
Attempt Homicide to any degree; Yet, he wanted something on the record, Id. R. 38a R.39a R. @32. In this plea agreement discussion, the opposition in Prosecutors
Arnold/Charles, extended to the assessments and rulings given by Kelsey III and trial
Judge Kline on the law, where prosecutors proposed all the wanted was Attempt 3rd Degree
Murder as the charging offense, Id. R.39a - 40a, R.8a @ 6.2-B.
29. It was the trial transcripts “records” that disclosed how lawyer Kelsey III
expressed the change Attempt Homicide for Attempt 3rd Degree Murder, and changed the
information to read as such by physically exchanging the two after trial Judge Kline, called
on lawyer Wynne to concede to the charge brought by the prosecutors in Attempt 3rd Degree
Murder and he conceded. Id. R. 40a - R. 41a.
App. H.9

30. Prosecutor Ditzler declared appellant charged in Attempt 3rd Degree Murder
[that] does not have a Statute, caused him prejudice and began to bring light to his case
where trial Judge Kline is reading an instruction to Jury -1998 for the charge Attempt 3rd
Degree Murder - which is without a State Statute, thus violating appellant’s Sixth and
Fourteenth Amendments to the Constitution of the United States.
31. It was Prosecutor Ditzler’s statement that opened appellant’s mind to look for
the truth in his case, such as the February 17, 1999 Order of trial Judge Kline was actually
a 1925 Opinion, and how that Opinion set aside the Jurys 1998 verdict on Attempt 3rd
Degree Murder to find appellant guilty of Attempt Criminal Homicide, Id. R.44a - R.45a;
And, done 34 days before certifying the trial transcripts “records” for March 23, 1999,
finding appellant guilty of Attempt 3rd Degree Murder- the crime that does not exist
Statutorily, Id. R.43a.
32. Appellant was also aware that trial Judge Kline also set aside the Jury verdict
16 months after certifying the record to hold in August 10, 2000, that appellant was guilty
of Attempt Criminal Homicide, Id. & R. 46a - R. 47a; and thereby removed Attempt 3rd
Degree Murder from documents as given to the Pennsylvania Superior Court, causing
appellant prejudice and fraud upon the Court. Id. R.9a @ 6.2-D.
33. As the wrongful charge created and given to the jury in 1998 is Attempt 3rd
Degree Murder, it became a wrongful prejudicial action to continue appellant’s illegal
detention under a crime created by an unconstitutional law/tribunal, it is not a factual rule
of law, not a factual statutory crime and does not exist as a matter of law, Id. R.9a @ 6.2-E.
34. As a direct and proximate result of Prosecutor Ditzler’s misrepresentations,
concealments, and insincere concessions, appellant has been prejudiced and continues to be
harmed as appellant has been serving 23 years of a 34 year sentence of a crime that does
not exist, Id. R.9a @ 6.2F.
(iii) LAWYER BUCHANIO
35. Lawyer Buchanio’s statement of not knowing of case law that provides relief (or)
which would justify or support any complaint that appellant might have as to the
sufficiency of evidence to support a conviction on the information brought by the
Commonwealth should not have been allowed, and in-fact abandoned appellant, Id. R.9a @
6.3.
36. First, for all the same reasons addressed under Prosecutor Gettle and Ditzler,
Id. R. 9a @6.3-A, had Buchanio actually defended and fought for appellant he would have
App. H.10

learned, and should have known that as a competent attorney the charge was illegal and
would have required the sitting judge to vacate and/or set aside the jury verdict.
37. Under Buchanio, an examination of the record with existing case law would
reveal knowledge and reason for him to know of authorities existing before and after
appellant’s case was decided which held that Attempt 3rd Degree Murder is logically
impossible and not a charge in Pennsylvania under State and Federal Law. It is well
settled that counsel was under an obhgation to cite and argue adverse cases, not simply
hide from them, which under the facts of this case is as unprofessional as it is pointless, Id.
R10a@6.3C.
38. If trial Judge Kline would have declined to address the illegality, Attorney
Buchanio could have entered an interlocutory appeal or a civil action against Kline’s ruling
which impaired appellant’s rights and thereby make Judge Kline a proper judicial
defendant where his judicial performance of his duties are drawn into question, not the
nature of the duty itself as a matter of law, Id. R.9a @ 6.3-B, R.61a @ 35.
39. As appellant’s case has not been through the character of confrontation that the
Constitution requires as adversaries, Lawyer Buchanio violates appellants Sixth
Amendment guarantee under Chronic vs. United States.
40. As an appointed public defender, Buchiano’s arguably deficient performance, the
results would have been different. It was one thing to say appellant could not have been
helped, it was quite another for counsel to sandbag appellant’s objection claiming that
appellant’s objection had no merit, Id. R.6.3-D.
41. As a direct and proximate result of Lawyer Buchiano’s deficiencies and
misrepresentations, by failing to correct the prosecutors misrepresentations and
unconstitutional - illegal jury charge in Attempt 3rd Degree Murder, appellant has been
prejudiced and continues to be harmed by defendants’ actions and conduct, in violation to
appellant’s Fifth, Sixth, and Fourteenth Amendments to the Constitution of the United
States and 28 USC § 2241 (c)(3), Id. @ 6.3-E.

(iv) PROSECUTOR LSI MR. BURNS / MR. DANERI
42. Prosecutor Michael E. Burns and Jack (John) Daneri, as defendants,
intentionally concealed appellant was to receive the full benefit and assistance of the trial
court - Erie, pursuant to Pa. R.A.P 1925(b) as April 29th, 2016 Notice of Appeal, issued after
the trial court Judge Brabender dismissed an In Forma Pauperis on April 13th, 2016 all
belonged to appellant, Id. R. 75a. As defendents subvert the integrity of the court itself so
App. H.ll

the judicial machinery could not perform in the usual manner, this caused prejudice to the
fundamental fairness essential to the very concept of justice, denying appellant Due Process
of law guaranteed by the Fourteenth Amendment to the Constitution of the United States.
43. Defendants intentionally conspired to take advantage of the trial court process
as willfully blind to the truth by substituting appellant for defendants, a 1925(b) Statement
for a Motion to Dismiss, following the Order of the trial Court in July 26, 2016, Id. R. 77a to
R. 80a; And contributed to the breakdown in the process, causing appellant to see a forced
Writ of Prohibition in the Supreme Court after his free petition, access to court and due
process were violated, Id. R. 62a @ 18; R.64a @ 29; R. 11a @ 6.4-E.
44. As defendants directed an intentional fraud at the Court itself when addressing
appellant’s incarceration for Attempt Homicide, and how the trial court judge is the one
making the statement, Id. R.82a, when Prosecutor Ditzler held appellant convicted of
“Attempt 3rd Degree Murdercharge, and how “The Commonwealth does not have a
Statute for what he has been convicted of” Id. R.34a; Prosecutor Gettle held there is
no charge as “Third Degree Attempt Murder ” and how “Appellant should have
preserve this claim” Id. R.33a; And how personnel in government held to appellant’s
incarceration, there are “iVo Sentencins Order and no Commitment Order”, Id. R.35a
— R.36a; causing prejudice to appellant for all the same reasons addressed under Prosecutor
Gettle, Ditzler, and Lawyer Buchanio, Id. R.lOa - 12a, R. 62a -R.66a.
45. Defendants no jurisdiction couched in venue statement is false and misleading,
Id. R.82a - 83a; as trial court - Erie exercises jurisdiction on the charge that here is a non­
criminal, non-cognizable charge in nature. Defendants as lawyers and officers of the Court
have a duty to disclose the evidence as received by appellant on incarceration as addressed
above, [Infra @ 43], as these actions violate appellants Constitutional Rights, Id. R.lOa @
6.4-B, R.63a@ 19-20.
46. Defendants did not have to intentionally induce the trial court - Erie to treat
the Prerogative Writ as a Post-Conviction Relief Motion (PCRA) to dismiss the motion as
appellant is unable to satisfy any of the requirements under the PCRA, Id. R.83a - R.84a.
Appellant offered a non-criminal, non-cognizable charge that could not satisfy the statutory
language in § 9543 (a)(1) of Title 42; while the petition itself was timely and issued
following the decision of the United States Supreme Court in Montgomery v. Louisiana
[January 25, 2016], leaving the filing of the relief in the Prerogative, while defendants

App. H.12

■t

retained a Motion for Modification under Pa.R.Crim.P. Rule 720; not continue appellant
incarceration for a charge that is not a crime he has been serving 23 years of a 34 year
sentence, violating his First, Sixth, and Fourteenth Amendments.
47. Defendants subvert the integrity of the Court itself so that the judicial
machinery could not perform in the usual manner with false, misleading, and concealed
statements when on the record Prosecutor Ditzler declared appellant charged in Attempt
3rd Degree Murder [that] does not have a Statute, and began to bring light to his case.
It was recognized that trial Judge Kline was reading some form of instruction to Jury 1998
for the charge Attempt 3rd Degree Murder when it had no Statute, violating appellants
Sixth, and Fourteenth Amendment; And, it was on Prosecutor Ditzler’s statement that
opened appellants mind to look further, such as not being provided notice or chance to
contest in February 17, 1999 - Order of trial Judge Kline that was actually a 1925 Opinion,
and how that Opinion set aside the Jury’s 1998 verdict on Attempt 3rd Degree Murder.
finding appellant guilty of Attempt Criminal Homicide. Id. R.44a - R.45a; This done 34
days before certifying the trial transcript "records” for March 23, 1999, finding appellant
guilty of Attempt 3rd Desree Murder. Id.R.43a: to then have trial Judge Kline set aside
the jury verdict after certification 16 months later to hold in August 10, 2000 appellant
guilty of Attempt Criminal Homicide, Id. & R. 46a - R.47a; Here removing Attempt 3rd
Degree Murder from court documents as given to the Pennsylvania Superior Court, Id. R.
9a @ 6.2 - D; And this caused fraud upon the court and prejudice to the fundamental
fairness essential to the very concept of justice, denying appellant Due Process of Law
guaranteed by the Sixth and Fourteenth Amendments to the Constitution of the United
States, Id. R. 64a.
48. As a direct and proximate result of defendants’ misrepresentations,
concealments, and insincere concessions, appellant has been prejudiced and continues to be
harmed as appellant has been serving 23 years of a 34 year sentence of a crime that does
not exist, Id. R. 6a @ 5.
49. As a direct and proximate result of all the defendants’ actions and conduct,
appellant has been harmed and injured by a bad faith misrepresentation about appellant’s
incarceration as he is convicted of the only charge “Attempt 3rd Degree Murder ” a charge
that is stated by the Commonwealth Prosecutors to not “have a Statute” and for what
appellant “has been convicted of,” Id. R. 34a - R.33a; And, as to his actual incarceration,

App. H.13

there are “No Sentencing Order and no Commitment Order” Id. R. 35a - R. 36a. The
defendants have failed to conduct themselves befitting their particular government
positions and conduct themselves in good faith, representing the truth about appellant’s
incarceration; And due to their intentional misrepresentation and concealments, a
Magistrate Judge (now a U.S. District Court Judge) relied on their false and misleading
statement and concealments on August 3, 2017 to a Constitutional degree, Id. R. 6a @ 5;
causing appellant prejudice, denying him Due Process of Law guaranteed by the Sixth and
Fourteenth Amendments to the U.S. Constitution.
50. Appellant moved to show with evidence that he was not waiting for further
factual development as defendants’ have stated positively appellant was charged,
sentenced, and incarcerated on a non-criminal, non-cognizable charge, Id. R. 33a - R. 48a;
Making his claims ripe for review of Constitutional violations and relief critical to his cause
for which he secured the Courts attention by filing a second motion on September 27, 2019
to proceed In Forma Pauperis, Id. R. 49a - 51a.
(j) ORDERS & OTHER DETERMINATIONS
51. On October 14, 2019 the trial court - Erie issued a panel opinion dismissing the
cause and In Forma Pauperis. The determination by Senior Judge Cunningham ruling was
based on its holding that there was no basis for a PCRA petition as appellant was not
convicted of any crimes in Erie County [that] a prior IFP was denied by the entire state
tribunal in the 2016 - 2017 term of litigation, including a Prerogative Writ for lack of
Jurisdiction, and appellant was advised that any further abuse of process may result in
sanctions for relief against his Lebanon County Criminal Conviction in Erie, Id. R. 52a.
52. On October 28, 2019, with concerns about the warning for sanctions in the trial
court - Erie, appellant filed his Notice of Appeal with October 14th Order, a Procedural
History of 2016 - 2017 Term of Litigation, a Statement of Matters Complained of on
Appeal, and a third IFP motion with the Superior Court. The Appellate Court received
appellants filings on November 4, 2019 and sent them to the trial covert - Erie on November
5th of 2019, Id. R. 53a.
53. On November 8, 2019 the Superior Court issued a docketing sheet to review
with a docketing statement to complete, and an invoice for an estimate of $90 U.S. Dollars
and 25 cents, on appeal as due December 9, 2019, Id. R. 54a. Appellant completed the
docketing statement by reprinting all the leafs of papers [infra. #.52], on appeal in
November 17, 2019, Id. R. 55a - R. 56a.
App. H.14

54. The trial court issued a panel opinion on behalf of Senior Judge in November 15,
2019, as issued by Judge Mead and directing appellant to comply with Ride 1925(b), file
and serve the record and court a concise statement of matters complained of on appeal
within 21 days, Id. R. 57a.
55. On November 18, 2019 appellant issued an Application by leave of Court for
Action in Matters requesting trial court - Erie rule on In Forma Pauperis Motion as filed
in and for the Superior Court on October 28, 2019, Id. R.68a. And, in November 25, 2019
appellant refiled his 1925(b) Statement, Id. R. 58a - 59a, and provided a certified
Amendment in an Affidavit to Mr. Antonio Sierra’Procedural History, Id. R. 60a 67a.
56. On November 26, 2019 the trial court sustained dismissal of appellants IFP
motion. Judge Mead based its ruling on Senior Judges October 15th, 2019 decision to deny
appellant leave to continue, Id. R.58a -59a.
57. On December 4, 2019 the trial court issued a panel opinion holding appellant’s
appeal without merit and should be dismissed. Judge Mead based his memorandum
Opinion stating, a review of Appellant’s 1925(b) statement and review of the record and
relevant case law sustains S.J. Cunningham’s opinion to dismiss appeal, Id. R.69.
58. On December 8, 2019 appellant filed a Petition to Renew Objections. Id.
R.70a, and stated his reasons as found in his November 25, 2019 Concise Statement of
Matters Complained of on Appeal, Id. R.58a — R.59a. Appellant further issued a Petition
for Pauperism (4th), in the Superior Court to decide (pending invoice), Id. R.71a - 72a.
59. On December 9, 2019 the Superior Court entered an Order to review the
inventory hst necessary for issues on appeal, Id. R.73a; Appellants brief is to be filed by
January 21, 2020, Id.
60). On December 13, 2019, appellant issued Application for Production of Less
Copies to the Superior Court, id. R.74a. Said Court issued an Order on December 26, 2019,
GRANTING Appellant's in forma pauperis and reduction of copies, while denying pro se
application for rehef dated December 12, 2019, to properly raise any issue in his brief.
61). On December 27, 2019, appellant issued a Petition to Report Contents on
Reproduced Record, and on January 16, 2020, submitted Appellate Brief with the
Reproduced Record.
62). Appellee's did not contest any of Appellant's claims to the Superior Court.

App. H.15

63). On February 4, 2020, Appellant submitted a Motion and Application for Bail.
The Superior Court received Appellants filings February 6, then on February 24, 2020
issued an Order denying his application for bail
64). On February 28, 2020, Appellant filed an Application for Reconsideration for
Bail pursuant to Bond vs. U.S., 564 U.S. 211, 131 S.Ct. 2355 (2011) (Per Curiam),
Commonwealth vs. McDermott, 547 A.2d 1236 (Pa. Super. 1988) & Bonaparte, 530 A.2d
1351 (Pa. Super 1987); And a Petition to Enforce Judgment pursuant to (inter alia) Folger
vs. The Robert G. Shaw, 9 F. Cas. 335 (1st. Cir.1847), and the Superior Courts January
21,2020 Order to Appellee's.
65). On March 20, 2020, The Superior Court issued a determination affirming the
Common pleas court denial of in forma pauperis and PCRA petition. The court held
appellant had not proven he was entitled to rehef as his brief fell below the minimum
standards and did not follow the Pennsylvania Rules of Appellate Procedure.
66). On April 1, 2020, the Supreme Court of Pennsylvania issued a Second
Supplemental Order that in pertinent parts "... extended the time to file any legal papers or
pleadings by May 1, 2020." See 531 & 532 Judicial Administration Docket.

App. H.16

